         OFFICE OF INSPECTOR GENERAL

                               Catalyst for Improving the Environment



Evaluation Report



   Nationwide Identification of
   Hardrock Mining Sites

   Report No. 2004-P-00005


   March 31, 2004
Report Contributors:          Tina Lovingood
                              Barry Parker
                              Tiffany N. Smith
                              Hilda Canes
                              Frank Fennell
                              Dave Cofer
                              Tom Reilly




Abbreviations

AMD            Acid Mine Drainage

AMLT           Abandoned Mine Lands Team

CERCLIS        Comprehensive Environmental Response, Compensation, and Liability
               Information System

EE/CA          Engineering Evaluation/Cost Analysis

EPA            Environmental Protection Agency

NMT            National Mining Team

NPL            National Priorities List

OECA           Office of Enforcement and Compliance Assurance

OIG            Office of Inspector General

OSWER          Office of Solid Waste and Emergency Response

PRP            Potentially Responsible Party

ROD            Record of Decision




Cover photo:          Homestake Mine, Lead, South Dakota (Tina Lovingood, EPA OIG)
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                         March 31, 2004

MEMORANDUM

SUBJECT:              Evaluation Report: Nationwide Identification of
                      Hardrock Mining Sites
                      Report No. 2004-P-00005


FROM:                 Carolyn Copper /s/
                      Director of Program Evaluation: Hazardous Waste Issues
                      Office of Program Evaluation

TO:                   Marianne Horinko
                      Assistant Administrator
                      Office of Solid Waste and Emergency Response


This is the final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This report contains information on
EPA’s inventory of 156 hardrock mining sites.

This report contains findings and recommendations that describe problems the Office of
Inspector General (OIG) has identified and the corrective actions the OIG recommends. This
report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position, and are not binding upon EPA in any enforcement
prodeeding brought by EPA or the Department of Justice. Final determinations on matters in this
report will be made by EPA managers in accordance with established audit resolution
procedures.

On February 5, 2004, the OIG issued a draft report to EPA for review and comment. We
received the Agency’s response to the draft report on March 8, 2004. The Agency did not
identify any factual errors in the report and generally agreed with the report’s recommendations.
EPA conveyed their appreciation for the significant effort the OIG staff put into gathering
information, developing findings, and providing recommendations. The Agency also believed
that the recommendations, if implemented, would enhance the effectiveness of Agency decision-
making at hardrock mining sites.

The Agency provided a number of comments on various aspects of our report and on planned
actions in response to the report’s recommendations. We provide a summary and general
evaluation of these comments in the Executive Summary. We include the full text of EPA’s
comments in Appendix D.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are on-going and provide a timetable for completion. Reference to
specific milestones for these actions will assist in deciding whether to close this report in our
assignment tracking system.

We have no objection to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig. Should you or your staff have any
questions, please contact me at 202-566-0829, or Tina Lovingood, Project Manager, at
202-566-2906.

Attachment
                       Executive Summary
Purpose

    This review, focusing on hardrock mining, is part of an Office of Inspector General (OIG)
    evaluation of Superfund mega-sites (sites that may cost $50 million or more to clean up).

    Hardrock mining, which is not coal mining, involves the extraction of certain metals and
    minerals found in hard formations of the earth. They include, among others, copper,
    gold, iron ore, lead, and silver. Hardrock mining can cause significant impacts on the
    environment, potentially affecting ground and surface waters, aquatic life, vegetation,
    soils, air, wildlife, and human health. The Environmental Protection Agency (EPA) has
    reported that the metal mining industry was the largest toxic polluter in 2000, releasing
    3.4 billion pounds of toxics, or 47 percent of the total released by U.S. industry.
    Although EPA can inherit the responsibility for cleaning up hardrock mining sites, the
    Agency is just one of several with a role in regulating and cleaning up the environmental
    impacts of hardrock mining.

    Our overall evaluation question was: “Is there a financial impact from hardrock mining
    sites on the Superfund Trust fund and on States?” This report involved developing an
    inventory of hardrock mining sites, and providing information on current sites as well as
    those that may need to be addressed by Superfund in the future. Regional officials
    provided us with an inventory for all non-coal mines, mills, and primary smelters that had
    cost or have the potential to cost the Superfund Trust fund $1 million or more. This
    report provides information on estimated cleanup costs, human health and environmental
    risks, cleanup responsibilities, and cleanup time estimates.

Results

    We identified 156 hardrock mining sites nationwide that have the potential to cost
    between $7 billion and $24 billion total to clean up (at a maximum total cost to EPA of
    approximately $15 billion). These costs are over 12 times EPA’s total annual Superfund
    budget of about $1.2 billion for the last 5 years. This suggests potential difficulties for
    the Superfund program, although, based on how EPA may apply listing and/or funding
    criteria, these costs may not all fall to EPA. Following are some observations:

    •     There is some uncertainty regarding the current human health and environmental risks
          associated with sites in the inventory. Over a third (42 percent) of the mining sites
          that are in EPA’s Comprehensive Environmental Response, Compensation, and
          Liability Information System (CERCLIS), but are not on the National Priorities List
          (NPL) have unknown human health risks at this time. Ten percent of the mining sites
          on the NPL have current unknown human health risks. On the other hand, 42 percent



                                              i
        of NPL sites and 30 percent of the CERCLIS/Non-NPL sites have current high or
        medium human health risks. Similarly, one half (50 percent) of the NPL mining sites
        have current high or medium environmental risks while nearly two thirds (64 percent)
        of the CERCLIS/Non-NPL mining sites have current high or medium environmental
        risks.

    •   Although at least one potentially responsible party (PRP) has been identified at 83
        percent of the hardrock mining sites, uncertainties about the complete nature of these
        parties’ liabilities and their ability to pay for cleanup actions over the extreme long-
        term counteract this positive news. For example, about 70 percent of current NPL
        sites have a clearly viable potentially responsible party. However, our data also show
        that the majority (59 percent) of all the projected sites will need 40 years to “in
        perpetuity” for cleanup, and we question the ability of businesses to sustain efforts for
        such lengths of time.

    •   For long-term response actions that are financed by Superfund, EPA performs these
        long-term response actions at cleanup facilities for up to 10 years, with the State
        paying 10 percent of the cost, after which responsibility is turned over to the State.
        Therefore, potentially responsible party viability and long-term cost issues will have
        financial impacts on States.

    •   The management and financial challenges from current and potential future hardrock
        mining sites are not proportionately distributed throughout the country. More than
        70 percent of all sites are located in four EPA Regions – 4, 8, 9, and 10. Also, the
        western regions (8, 9, 10) and Region 7 have the largest number of sites with high or
        medium risks to human health, and the western regions contain 75 percent of the sites
        with acid mine drainage. Region 4's hardrock mining sites account for about half of
        the nationwide total projected maximum cleanup costs.

Recommendations

    Our research indicates some key areas of concern that need to be addressed to enhance the
    effectiveness of Agency decision-making and planning, concerning the ability of the
    Superfund program to manage potential challenges from hardrock mining financial
    concerns. These issues include potentially responsible parties’ long-term viability,
    efficiency and effectiveness of existing remedies and alternative remedies, and location of
    sites. An appropriate understanding of these issues will raise the Agency’s capacity to
    plan for financial impacts to the Superfund program and develop useful strategies.
    Therefore, we recommend that EPA’s Assistant Administrator for the Office of Solid
    Waste and Emergency Response take action to have a report produced that looks at the
    long-term sustainability and liability of businesses involved in hardrock mining
    operations, the type of remediation technologies currently available, and promising new
    technologies. We also recommended continuing support for improving EPA’s National




                                              ii
    Hardrock Mining Framework, and the prioritizing of efforts based on human health and
    environmental risks and workload per region.


Agency Comments and OIG Evaluation

    The Agency agreed with our recommendations and indicated that if they were
    implemented it would enhance the effectiveness of Agency decision-making at hardrock
    mining sites. The Agency proposed several actions in response to our recommendations.

    Although the Agency accepted our recommendations they had significant concerns
    regarding the interpretation and analysis of information contained in the report on the risk
    levels at hardrock mining sites and the cost estimates for cleaning up the sites. The
    Agency noted that, over the last 20 years, they have placed mine sites on the NPL because
    they presented significant risks to human health and the environment. Because a variety
    of remedial and removal actions may have occurred at these sites, the Agency requested
    that the report explain that many of the sites have low current risk due to Agency or
    potentially responsible party actions. The Agency also said that our report should reflect
    the fact that some of the sites have not yet undergone full risk characterization, the risk
    assessments are subjective judgments made by regional field personnel, and the risk
    assessments do not consider future risks that may sometimes be greater than current risks
    based on land use decisions.

    Regarding cost estimates, the Agency said that our report should state that many of these
    sites will never rise to the attention of the Superfund program, but that those that are high
    risk, where there is no viable potentially responsible party, or States are not willing to
    address these sites, will. The Agency expressed concern that we report the maximum
    end of cleanup cost ranges, not the minimum, which could substantially change the cost
    estimate. In addition, the Agency requested that we report different types of cost
    estimates based on the reliability of costing data. As an example, the Agency said we
    should report the cost estimates for those sites where EPA or the State has calculated a
    site-specific cleanup cost. Finally, the Agency said that our report should note the fact
    that, until the Agency determines whether a viable potentially responsible party exists or
    States are willing to take the lead on a site, the extent of Superfund lead expenditures
    cannot be determined.

    The actions the Agency has proposed to address our recommendations are generally
    acceptable as long as the Agency produces tangible evidence, for OIG review, in lieu of
    the report we recommended, to substantiate completion of their actions. The Agency
    needs to provide milestones for the completion of these actions. With regard to the
    Agency’s concerns on the risk assessment and cost estimates that EPA staff provided to
    us, despite criticisms of the data, the Agency has not provided us with an alternative
    database, or inventory, with different, or more reliable data. Therefore, within the
    limitations we state in our report, we believe the data we report is the best available. We
    worked diligently and transparently with the Agency to obtain their input on the best way

                                              iii
to collect information on the locations, risks, and potential costs associated with hardrock
mining activities. We learned early in our work that EPA does not have a consistently
used method for calculating cost estimates for hardrock mining sites, nor one that has
been demonstrated to be more or less reliable than another. Because of this problem, we
report cost estimates in ranges. We present most of our data in terms of maximum
projected costs to avoid minimizing the potential liability associated with these hardrock
mining sites, as cleanup costs can often be underestimated. Underestimation of cleanup
costs can occur when inflation is not considered, when acid mine drainage is inaccurately
predicted, or when cleanup is delayed. One study suggests that the discovery of
inaccurately predicted acid mine drainage can increase site cleanup estimates by up to
1000 percent or more. Costs to the Federal government may also increase when a PRP
defaults. For example, Asarco, which was the potentially responsible party for several
sites in the inventory, settled with the Federal government for $100 million. Based on the
cleanup estimate for only one site owned by Asarco in the hardrock mining inventory
($457.1 million), $100 million is a considerable underestimate of costs.

We also acknowledge that the Agency may not necessarily inherit all of this liability due
to the application of listing criteria, and, where possible, we report costs for those
operable units (sites in the hardrock mining inventory generally contained multiple
operable units) that have achieved a Record of Decision. Concerning risk information,
our draft report clearly stated that our survey asked about current risk and that remedial or
removal actions could have occurred in the past, resulting in current risk ratings that are
low.

We have made changes to the report as appropriate. The Agency’s complete comments
are in Appendix D and our responses to specific points are in each Chapter, as
appropriate.




                                         iv
                                     Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          2         Profile of Selected Site Characteristics . . . . . . . . . . . . . . . . . . . . . . . 11

          3         Human Health Risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

          4         Ecological/Environmental Risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

          5         Cleanup Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

          6         Conclusions and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 51




 Appendices
          A         Summary of the General Mining Law of 1872 . . . . . . . . . . . . . . . . . . 53

          B         Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

          C         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . 63

          D         Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

          E         Distribution List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81




                                                                v
List of Figures
   1.1    Photograph of MolyCorp Molybdenum Mine
   1.2    Photograph of Example of Acid Mine Drainage
   2.1    Breakdown of Total Sites by NPL Status
   2.2    NPL Status of Sites by Region
   2.3    Operating Status of Mining Sites
   2.4    Number of Sites with Acid Mine Drainage
   2.5    Most Common Contaminants at the 156 Sites
   2.6    PRP Viability at NPL Sites
   2.7    PRP Viability at CERCLIS/Non-NPL Sites
   2.8    PRP Viability at Potential (Non-CERCLIS/Non-NPL) Sites
   2.9    Operation and Maintenance Timeframes for the 156 Sites
   3.1    Human Health Risks at NPL Sites
   3.2    Human Health Risks at CERCLIS/Non-NPL Sites
   3.3    Human Health Risks at Potential (Non-CERCLIS/Non-NPL) Sites
   3.4    Human Health Risks by Region
   4.1    Eco/Environmental Risk at NPL Sites
   4.2    Eco/Environmental Risk at CERCLIS/Non-NPL Sites
   4.3    Eco/Environmental Risk at Potential (Non-CERCLIS/Non-NPL) Sites
   4.4    Ecological/Environmental Risk by Region
   4.5    Health and Eco/Environmental Risk
   5.1    History of Congressional Appropriations for the Superfund Program Since
          1999
   5.2    Estimates of Future Costs to EPA for the Superfund Program
   5.3    Total Projected Cleanup Costs
   5.4    102 Sites Provided Current Operable Unit Status
   5.5    Total Maximum Projected Cleanup Costs by NPL Status
   5.6    Maximum Projected Federal Capital Costs by NPL Status
   5.7    Maximum Projected Cleanup Costs by Region
   5.8    Maximum Projected Federal Capital Costs for Human Health Risks -
          NPL Sites
   5.9    Maximum Projected Federal Capital Costs for Human Health Risks -
          CERCLIS/Non-NPL Sites
   5.10   Maximum Projected Federal Capital Costs for Eco/Environmental Risks -
          NPL Sites
   5.11   Maximum Projected Federal Capital Costs for Eco/Environmental Risks -
          CERCLIS/Non-NPL Sites




                                      vi
                                       Chapter 1
                                        Introduction

Purpose

    This review is part of the Office of Inspector General’s (OIG’s) evaluation of Superfund
    mega-sites. The Environmental Protection Agency’s (EPA’s) Office of Solid Waste and
    Emergency Response (OSWER) suggested that we examine the issue of mega-sites (sites
    with actual or expected total removal and remedial action costs of $50 million or more1)
    due to potentially significant cost implications for the Superfund Trust fund. This review
    focuses on hardrock mining sites because these sites are costly and complex. Resources
    for the Future recently reported that “the average cost to clean up a non-mega mining site
    on the National Priorities List (NPL) is about $22 million, more than double the average
    for most other non-mega site types, such as chemical manufacturing and recycling sites.”


    Our overall evaluation question was: “Is there a financial impact from hardrock mining
    sites on the Trust fund and on States?” To address this question, we needed to obtain a
    nationwide inventory of hardrock mining sites. This report provides information on the
    inventory of 156 hardrock mining sites that were identified by EPA officials: a profile of
    selected site data, human health risk information, ecological/environmental risk
    information, and cost information. This report provides information on potential
    financial impact to the Trust fund from hardrock mining sites. Due to the complexity and
    uncertainties in some of the information provided to us, we were unable to quantify the
    financial impact on States. However, the report data provides indicators of the potential
    financial impact on States.

    Our report recognizes EPA’s current policy is to fund projects based on health risks,
    contaminant toxicity, contaminant mobility, environmental or ecological risks, or other
    program considerations, such as the likelihood that a potentially responsible party (PRP)
    will reimburse EPA, the likelihood that other cleanup programs or States could manage
    the cleanup, the site specific timing scheme for completing cleanup, and potential land
    reuse opportunities. It also recognizes that EPA lists sites on the NPL based on human
    health exposure and then considers other factors, such as: the need for a strong
    enforcement for uncooperative potentially responsible parties; the level of State, tribal,
    community, and congressional delegation support; estimated cleanup costs; the timing of
    the costs and cleanup; environmental justice issues; prospects for commercial
    redevelopment; and geographic balance. Where the data we collected provide insight on
    these issues, we present information to assist management in implementing this policy
    and we make recommendations to strengthen EPA’s decision-making ability.


    1
           Superfund’s Future: What Will It Cost?, Katherine N. Probst and David M. Konisky, Resources for the
           Future, 2001.
Organization of the Report

     Chapter 2 provides a profile of selected inventory data, including information on regional
     distribution of sites, presence of acid mine drainage, NPL status, and operational status,
     among others. Chapters 3 and 4, respectively, provide information on human health and
     environmental/ecological risks. Chapter 5 presents information on projected cleanup
     costs of hardrock mining sites across the country.

     In order to provide proper context, we generally present our information based on
     whether sites identified in this inventory are currently (1) on the NPL, thus having the
     ability to have long-term cleanup paid for by the Superfund program (i.e., NPL sites);
     (2) not yet listed on the NPL for various reasons, but being tracked by the Superfund
     program in the Comprehensive Environmental Response, Compensation, and Liability
     Information System (CERCLIS) (i.e., CERCLIS/Non-NPL sites); or (3) not yet included
     in CERCLIS or on the NPL, but identified by EPA staff as potential sites that may need
     attention (i.e., Potential sites).




                                             2
Background

    Environmental Consequences of Hardrock Mining

    In its 1999 report, “Hardrock Mining on Federal Lands,” the National Research Council
    of the National Academy of Sciences (a non-profit research organization that, under
    Congressional mandate, advises the Federal government on scientific and technical
    matters) noted that hardrock mining can cause significant impacts on the environment,
    potentially affecting ground and surface waters, aquatic life, vegetation, soils, air, and
    wildlife. Mining sites are typically large, complex, and costly to clean up. At least 19 of
    the NPL sites in this hardrock mining inventory have estimated cleanup costs $50 million
    or more. An example of a mining site is pictured in Figure 1.1.




    Figure 1.1
    Source: Photo from report: Mineral Policy Center Issue Paper No. 4, Putting a Price on Pollution - Financial Assurance for Mine
              Reclamation and Closure, Jim Kuipers, March 2003.




                                                              3
Hardrock mining is not coal mining. Hardrock mining involves the extraction and
beneficiation (separation of minerals/metals from waste) of certain metals and minerals
found in hard formations of the earth. These metals and minerals serve as the primary
raw materials for most of the industrial, commercial, and consumer equipment and
structures produced by the U.S. economy. The removal and beneficiation result in large
quantities of waste (e.g., waste rock, tailings, mine water). The total amount of waste
produced can range from 10 percent (potash) to 99.99 percent (gold). Open mine pits,
tailings ponds, ore stockpiles, and waste rock dumps can all be significant sources of
toxic pollutants, primarily heavy metals such as cadmium and lead. EPA’s Toxic Release
Inventory 2000 report indicates that the metal mining industry was the largest toxic
polluter in 2000, releasing 3.4 billion pounds of toxics, or 47 percent of the total released
by U.S. industry. While there is no current consensus, or conventional method for
defining or identifying mine sites, EPA estimates there may as many as 200,000
abandoned hardrock mines in this country, although these may not all fall within EPA’s
responsibility.

The U.S. Forest Service estimates that approximately 10,000 miles of rivers and streams
may have been contaminated by acid mine drainage. Acid mine drainage can occur when
iron sulfides in rock are exposed to water and oxygen. The process of mining brings
sulfide-bearing rock to the earth’s surface, fractures it, and exposes substantial amounts to
weathering. The minerals gradually oxidize to form dilute sulfuric acid and ferric
hydroxide, resulting in acid mine drainage. When acid drainage occurs, it is extremely
difficult to control. According to the National Research Council, “improved methods for
prediction, prevention, and long-term treatment are needed to minimize the expenses
related to acid drainage and to enhance the long-term protection of the environment.”2
Resources for the Future noted that it would be difficult, if not impossible, to achieve
water quality standards at some sites due to acid drainage and leaching of mine wastes.3
An example of acid mine drainage is pictured in Figure 1.2.




2
       Hardrock Mining on Federal Lands, National Research Council, 1999.
3
       Superfund’s Future: What Will It Cost?, Katherine N. Probst and David M. Konisky, Resources for the
       Future, 2001.


                                                 4
Figure 1.2
Source: National Association of Abandoned Mine Land Programs



According to EPA, in recent years, environmental practices employed by the mining
industry have improved considerably and reduced the environmental impacts from mining
projects. Bureau of Land Management data indicate the number of plans and notices of
operations for new mining activities has fallen approximately 50 percent since 1992.
Some improvements made in mining operations include best practices for control of
storm water runoff, better treatment of wastewater, better management of tailings and
waste rock, and more efficient metal recovery technologies.




                                            5
    Laws and Agencies Involved in Hardrock Mining

    A complex set of Federal and State environmental laws and regulations apply to hardrock
    mining activities. The type and size of mining operations; kinds of land, water, and
    biological resources affected; organization of State and local permitting agencies; and the
    manner in which Federal and State agencies implement appropriate laws and regulations
    determine the degree and effectiveness of regulation. A significant amount of hardrock
    mining occurs on Federal lands in the Western States.

    Cleanup of mine sites located on Federally-owned lands is the responsibility of the
    Federal agency having jurisdiction over the land, unless those lands become patented and
    thus private, at which point the States and/or EPA take over cleanup responsibility. The
    Federal Land Policy and Management Act of 1976 for the Bureau of Land Management
    and the 1897 Organic Act and 1976 National Forest Management Act for the U.S. Forest
    Service provide direction for Federal land management. The General Mining Law of
    1872 is the primary statute regarding hardrock mining on Federal lands. This 131-year-
    old law permits “the exclusive right of possession and enjoyment” to any person who
    finds minerals on public lands, but does not contain any environmental protection
    provisions or guidance on cleanup programs for abandoned mines. The potential for
    considerable environmental damage due to the law has led some Federal and State land
    managers, as well as EPA, to agree that the Mining Law of 1872 is outdated and should
    be revised. See Appendix A for more details on the General Mining Law.

    In September 1997, EPA’s Office of Water issued a National Hardrock Mining
    Framework (the Framework) to provide a multimedia, multi-statute approach for handling
    environmental issues posed by proposed, active, and abandoned hardrock mining sites.
    The overall goals of the Framework were to achieve improved environmental protection,
    use resources more efficiently, and promote fiscal responsibility. The Framework called
    for regions with mining concerns to develop mining strategies to help them deal with the
    problems that mining sites pose.

Scope and Methodology

    We conducted our evaluation from March 2002 to June 2003, and we formally briefed
    Agency officials on our preliminary results in September 2003. We defined the sites to
    be included in the inventory as all non-coal mines, mills, and primary smelters that had
    cost or have the potential to cost the Superfund Trust fund $1 million or more.

    To collect site-specific information, we developed a survey instrument that we sent to
    EPA site managers in all 10 EPA regions (see Appendix B). The survey contains
    questions to collect information on general site characteristics, the Superfund status of the
    site, cost information for the site, media affected at the site, and information on PRPs’
    existence and viability (ability to pay for cleanup.)




                                              6
In developing the survey, we met with EPA headquarters officials from the OSWER and
Office of Enforcement and Compliance Assurance (OECA). We also consulted with
members of EPA’s National Mining Team (NMT) and EPA’s Abandoned Mines Land
Team (AMLT) asking for input and suggestions. In addition, we field tested the survey
instrument with headquarters and regional EPA officials.

To verify the information entered into the survey instrument, we performed several
activities. First, we conducted on-site data verification for selected sites in Regions 7 and
8. We focused our data verification on cost data, human health and
environmental/ecological risk data, and information on the status of cleanup. Verification
for the purposes of this evaluation meant that we asked regional officials to verify their
survey information to make sure that it was accurate and complete. It also involved
requesting explanations of data entered into source documents.

Specifically, we also asked regional officials:

‘      to identify guidance documents used to develop the cost estimates in the survey
       responses.
‘      for the documentation that supported the cost estimates, and where none was
       available, we asked for regional officials to explain the logic they used to develop
       the cost estimates.
‘      for supporting documentation for the rating decision for current human health and
       ecological/environmental risks.
‘      to answer a series of structured interview questions and checklists relating to their
       survey responses in order to verify support for the information contained in their
       survey responses. For our visit to Region 8, we refined this set of supporting
       interview questions and checklists to again gain additional support for the
       information in survey responses.
‘      to review their submitted survey responses and to verify the accuracy of, or
       correct, the information they provided for sites in their region.

For the remaining eight regions we requested similar information electronically.

We reviewed prior reports, including the 1997 OIG report on minimizing hardrock
mining liabilities; the 2003 report on obstacles impeding the achievement of results from
the Agency’s hardrock mining Framework; and reports issued by the National Research
Council, Resources for the Future, the Center for Science in Public Participation, the
Mineral Policy Center, and the Western Governor’s Association. We also obtained and
reviewed information from the National Mining Association.

We performed our evaluation in accordance with applicable Government Auditing
Standards, issued by the Comptroller General of the United States. Additional
information on scope and methodology is in Appendix C.




                                          7
Explanatory Notes

     Concurrent to our evaluation, EPA formed an AMLT whose goal is to identify abandoned
     mine lands and find alternatives to their listing on the NPL or find alternative sources of
     funding. In December 2002, this team identified 88 EPA NPL abandoned hardrock mine
     sites. EPA has estimated that it will cost a total of about $2 billion to clean up these 88
     sites.4 As of September 2003, 70 of the 88 sites are currently listed on the NPL. (The
     others were deproposed, deleted, or proposed). The number of EPA NPL sites identified
     in our universe differs from the number of sites the AMLT identified. Specifically, 16
     sites in the AMLT universe did not meet the OIG definition and are not included in our
     data. Reasons for this include the fact that some of these 16 sites were mine waste dumps
     or secondary smelters, and cleanup costs did not exceed actual or potential costs to EPA
     totaling $1 million or more. In addition, our work identified mine sites that were active,
     inactive, and abandoned.

Limitations
     ‘      The inventory may be understated. It does not include coal sites by definition,
            and it does not include all Federal sites, sites that States may not have shared with
            EPA, sites where it is too early in the process to identify them as meeting our
            definition, and hardrock landfill or dump sites. It may also be understated based
            on the regional officials’ interpretation of our definition of sites to be included in
            the database.

     ‘      We did not collect or project yearly cost estimates. We asked survey respondents
            to provide cost information including: past costs, total maximum projected
            cleanup costs, and capital costs, including the portion of projected Federal costs.
            Since EPA officials indicated it was difficult to pinpoint specific cleanup cost
            estimates, when we asked for cleanup cost information, we asked for it in ranges,
            from a “minimum” amount to a “maximum” amount.

     ‘      Past costs may or may not be included in total projected cleanup costs. We
            defined “total maximum projected cleanup costs” as those costs to be paid by
            PRPs, EPA, Federal agencies, and other parties. Depending on whether a site
            manager interpreted costs to be paid as those costs in total or in the future, past
            costs may or may not be included in total projected cleanup costs. Past costs are
            costs incurred before a settlement is reached with the potentially responsible
            parties, or when a settlement is not reached and EPA initiates a cost recovery
            action associated with cleanup costs paid.

     ‘      Risk judgments reflect current conditions. We asked respondents to provide
            information on current human health and ecological/environmental risks. At


     4
            This does not include sites on the Bureau of Land Management land. The Bureau estimates it may cost as
            much as $35 billion to clean up contaminated hardrock mine sites on Bureau lands.


                                                      8
    many of these sites, the States or EPA have not conducted detailed risk
    assessments. At NPL sites, it is possible that response actions or remediation has
    occurred thus, lowering the human health and ecological/environmental risk since
    the listing of the sites on the NPL. Further, current risks do not reflect future
    risks, which could be substantially higher because portions of these sites may be
    developed and this development could significantly increase risks posed at these
    sites.

‘   PRP viability is the survey respondents’ judgment. We asked survey
    respondents to indicate each PRP’s viability (ability to pay for cleanup) in one of
    the following categories: clearly viable, potentially viable, bankrupt or filed for
    bankruptcy, or PRP viability is suspect or largely unknown. Survey respondents
    may not be experts in finance or have the knowledge of a PRP’s aggregate
    liability and therefore there may be some uncertainty in their judgments of
    viability. Site managers may have responded that no PRP existed because no PRP
    search had been completed.




                                     9
10
                                                Chapter 2
               Profile of Selected Site Characteristics

      In this chapter, we present information regarding the profile of selected site
      characteristics in the mining sites inventory. The purpose of this chapter is to show site
      characteristics, such as the regional location of the sites, the operating status of mining
      sites, the presence of acid mine drainage at mining sites, NPL status, the contaminants of
      concern, and projections for how long operation and maintenance will take.

What is the Inventory of Mining Sites?

      The inventory is comprised of 156 sites: 63 NPL sites, 82 CERCLIS Non-NPL5 sites, and
      11 Potential (Non-CERCLIS/Non-NPL) sites. Approximately 60 percent of the mining
      sites in the inventory are Non-NPL sites.




                  Breakdown of Total Sites by NPL Status
                                         (Nationwide)

                                                7%

                                             11
                                            Sites
                                                          40%

                                                                            EPA Lead: 45
                                                         63 Sites           Other Lead: 18
                                     53%

          EPA Lead: 58
          Other Lead: 24             82 Sites




                 NPL       CERCLIS / Non-NPL         Potential (Non-CERCLIS/Non-NPL)




      Figure 2.1
      Source: OIG Analysis of Inventory Data

      One-hundred and six (68 percent) of 156 sites in the inventory are, or are projected to be,
      EPA-lead. However, these may not all become final NPL sites or sites that the Superfund
      program addresses.


      5
                Inclusion in CERCLIS currently means that the site may be hazardous enough to merit Federal action or be
                included on the NPL.


                                                                11
There are hardrock mining sites in every EPA region. However, a majority of the sites are
concentrated in 5 of EPA’s 10 regions. The western regions (Regions 8, 9, and 10) and
Regions 4 and 7 have the largest number of sites in the inventory.




                 NPL Status of Sites by Region
  50
  45                                                             43

  40
  35
  30                              27

  25                                                                      22
                                                                                 21
                                                          19
  20
  15                                              10
  10       6
                   3       3             2
    5
    0
           1       2       3       4     5            6    7      8       9      10
                                             Region
                   NPL    CERCLIS/Non-NPL      Potential (Non-CERCLIS/Non-NPL)



Figure 2.2
Source: OIG Analysis of Inventory Data

Three of the top five regions with the largest number of sites in the inventory (Regions 8,
9, and 10) have developed mining strategies pursuant to the Agency’s Hardrock Mining
Framework.




                                         12
What Are Some of the Characteristics of Sites in the Inventory?

      Operating status of the sites in the inventory can provide some indication of the ability to
      locate a PRP - an individual, business, or other organization that is potentially liable for
      cleaning up a site. Because most of the sites in the inventory are abandoned, this suggests
      complications locating PRPs and potential increased liability for EPA.




                    Operating Status of Mining Sites
                                               (Nationwide)

          Abandoned                       32                                      32             2


             Inactive              25                            18           4


               Active       6      12          3


       Uncategorized              20               2

                        0         10           20           30           40        50       60          70
                                                        Number of Sites
                            NPL        CERCLIS / Non-NPL              Potential (Non-CERCLIS/Non-NPL)




      Figure 2.3
      Source: OIG Analysis of Inventory Data




                                                       13
 Acid mine drainage (AMD) was identified at 45 of the 156 sites in the inventory. The
 National Wildlife Federation believes that sites where AMD is present should be
 carefully monitored as “the presence of acid mine drainage is either underestimated or
 ignored until it becomes evident, at which time the costs often exceed the operator’s (sic)
 financial resources, leading to bankruptcy or abandonment of the site in many cases.”

 AMD appears to be concentrated in Regions 8, 9, and 10. The following is a list, in
 descending order, of the total number of sites, by region, with AMD.

                      Region 8 --- 14 sites          Region 6 --- 4 sites
                      Region 9 --- 11 sites          Region 4 --- 2 sites
                      Region 10 --- 9 sites          Region 7 --- 1 sites
                      Region 1 --- 4 sites

 According to regional officials, the sites in the inventory in Regions 2, 3, and 5, had no
 AMD.




                          Number of Sites with Acid Mine Drainage
                     90
                     80                              8
                     70
   Number of Sites




                                    2
                     60
                     50
                                                     57
                     40            39
                     30
                     20
                     10            22                                       4
                                                     17                          1
                                                                                     6
                      0
                                  NPL          CERCLIS/Non-NPL          Potential (Non-
                                                                      CERCLIS/Non-NPL)

                            Sites with AMD     Sites without AMD                Unknown


                     45 AMD Sites Nationwide


Figure 2.4
Source: OIG Analysis of Inventory Data




                                                14
Lead, arsenic, zinc, and cadmium were the most common contaminants, and were found at
between approximately 50 and 80 of the sites in the inventory.




                    Most Common Contaminants at the 156 Sites
     160
 156__________________________________________________________________________________
 sites
                    140

                    120
  Number of Sites




                    100

                    80

                    60

                    40
                    20

                      0
                                               se




                                                                              m
                                  nc




                                                                                       um
                                                  r
                           ad




                                                m




                                              um
                                                 n
                            c




                                                m




                                                                      n
                                                ry
                                              pe
                          ni




                                             do




                                                                   Iro

                                                                               u
                                             iu




                                             iu




                                            cu
                                           ne
                                Zi
                        Le

                        se




                                                                                     ni
                                          ni




                                                                            in
                                         op
                                          m




                                         ad

                                        Ra




                                         er
                                       ga




                                                                          m

                                                                                      a
                                        le
                     Ar




                                      ad

                                       C




                                                                                   Ur
                                      R




                                      M

                                     Se




                                                                        u
                                    an




                                                                     Al
                                 C




                                   M




Figure 2.5
Source: OIG Analysis of Inventory Data



Lead, arsenic, zinc, and cadmium cause various health effects. The effects of lead are the
same regardless of the exposure pathway. The main target for lead toxicity is the nervous
system. Lead exposure may also cause anemia (low numbers of blood cells). At high
levels of exposure, lead can severely damage the brain and kidneys in adults or children.
Children are at greater risk to lead (than adults), and some of the developmental effects are
subtle, yet real (e.g., depressed IQ). In pregnant women, high levels of exposure to lead
may cause miscarriage. High-level exposure in men can cause reproductive problems.

Depending on exposure, inorganic arsenic can lead to a sore throat, irritated lungs, and
circulatory and peripheral nervous disorders, and can increase the risk of lung cancer.

Inhaling large amounts of zinc (as zinc dust or fumes from smelting or welding) can cause
a specific short-term disease called metal fume fever. However, very little is known about
the long-term effects of breathing zinc dust or fumes.



                                          15
The International Agency for Research on Cancer has determined that cadmium is
carcinogenic to humans, while EPA has determined that cadmium is a probable human
carcinogen by inhalation. For example, breathing air with very high levels of cadmium
can severely damage the lungs and may cause death. Breathing air with lower levels of
cadmium over long periods of time results in a build-up of cadmium in the kidney and, if
sufficiently high, may result in kidney disease.

Agency officials recommended the following websites for information on the toxic effects
of these contaminants.

•      EPA’s Integrated Risk Information
       (IRIS, website: http://www.epa.gov/iriswebp/iris/)

•      Agency for Toxic Substances and Disease Registry Toxicological Profiles
       (website: http://www.atsdr.cdc.gov/toxpro2.html)




                                        16
At How Many Sites Have PRPs Been Identified, and What Is Their Viability?

      The number and viability (ability to pay) of PRPs at each site provides insight about the
      parties that may be available to pay for cleanup. As might be expected, the average
      number of PRPs and their respective viability reduces as the NPL status becomes less
      certain - from NPL to CERCLIS/Non-NPL to Potential (Non-CERCLIS/Non-NPL).




                        PRP Viability at NPL Sites
                         (As Reported by Regional Site Managers)


                                                               Clearly Viable *
                           17%
                                                               Potentially Viable
                    3%
                   5%                                          Viability is Suspect or
                                                               Largely Unknown
                   5%                          70%
                                                               Bankrupt or Filed for
                                                               Bankruptcy
                                                               No PRP Identified




        * Only 1 “Clearly Viable” PRP Is Needed To Be Included In This Category



      Figure 2.6
      Source: OIG Analysis of Inventory Data

      At least one PRP was categorized as “clearly viable” at 70 percent of the 63 NPL sites.
      However, 11 percent of the NPL sites listed a Federal agency, such as the Department of
      Interior, as the “clearly viable” PRP.

      Thirty percent of the NPL sites either lacked an identified PRP, or lacked a clearly viable
      PRP.

      The number of PRPs at each NPL site ranged from zero to a maximum of 10. (Ten was
      the maximum number the survey questionnaire allowed.) Each NPL site had an average
      of 2.8 PRPs.




                                                     17
Compared to NPL sites, at CERCLIS/Non-NPL sites, fewer PRPs are identified as being
clearly viable. At the majority of sites (67 percent), where a PRP has been identified, the
PRP has less than clearly viable status.




        PRP Viability at CERCLIS/Non - NPL Sites
                       (As Reported by Regional Site Managers)


                                                            Clearly Viable *
                         15%

                  6%                     33%                Potentially Viable

                                                            Viability is Suspect or
                                                            Largely Unknown
                                                            Bankrupt or Filed for
                                                            Bankruptcy
                                               7%           No PRP Identified
                     39%



     * Only 1 “Clearly Viable” PRP Is Needed To Be Included In This Category


Figure 2.7
Source: OIG Analysis of Inventory Data




                                               18
As expected, for the 11 Potential (Non-CERCLIS/Non/NPL) sites, overall PRP viability
was still less certain, compared to NPL sites and CERCLIS non-NPL sites.




               PRP Viability at Potential Sites
                  (As Reported by Regional Site Managers)


                                                     Clearly Viable *

                               27%                   Potentially Viable
              37%
                                                     Viability is Suspect or
                                                     Largely Unknown
                                                     Bankrupt or Filed for
                                         9%          Bankruptcy
                                                     No PRP Identified

                         27%

 * Only 1 “Clearly Viable” PRP Is Needed To Be Included In This Category



Figure 2.8
Source: OIG Analysis of Inventory Data




                                              19
How Long Will Operation and Maintenance Be Needed?

     Operation and maintenance activities are activities necessary to ensure that the remedy
     remains protective of human health and the environment. Examples of operation and
     maintenance activities are operating a treatment plant (when restoring groundwater to a
     beneficial use), and maintaining fencing, site access, and security measures. For cleanups
     that are financed by the Superfund program, EPA operates and maintains the cleanup
     facility for up to 10 years, with the State paying 10 percent of the cost, after which the site
     is turned over to the State to continue operation and maintenance activities. For funding
     purposes, the Comprehensive Environmental Response, Compensation, and Liability Act
     classifies activities during this 10-year period, which EPA calls “long-term response
     actions,” as part of the cleanup, not as operation and maintenance.6

     The cleanup of mining sites takes generations according to current projections, as more
     than half (59 percent, or 92 of 156) of the sites will require operation and maintenance
     (activities necessary to ensure continued effectiveness of a post-construction remedial
     action) from 40 years to in perpetuity. Forty percent (37 of 92) of these sites are currently
     on the NPL. Further, operation and maintenance is expected to be needed for 99 of the
     156 sites for more than 20 years.




                    Operation & Maintenance Timeframes
                              for the 156 Sites
              70                         62
              60
              50
      Sites
              40         35
                                                         30
              30                                                                                    22
              20
              10                                                                7
              0

                        wn               ity              s                    rs                   rs
                     kno              etu            year                   yea                 yea
                                     p            00                      0                   0
                   Un             Pe
                                    r
                                                -1                      -4              0   -2
                               In            40                    21

                   NPL sites                    CERCLIS                                Potential (Non-
                                               Non-NPL sites                        CERCLIS/Non-NPL) sites




     Figure 2.9
     Source: OIG Analysis of Inventory Data


      6
              GAO report, Superfund Program: Current Status and Future Fiscal Challenges, GAO-03-850, July 2003.


                                                              20
Summary and Conclusions
    ‘   The greater number of mining sites in the western Regions (8, 9, and 10) and
        Regions 4 and 7 show that these regions may have greater needs for resources,
        guidance, and tools in addressing both the financial and environmental impact of
        mining sites.

    ‘   There are known human health risks from some of the most common contaminants
        of concern at hardrock mining sites (lead, arsenic, zinc, and cadmium).

    ‘   Because operation and maintenance activities are projected to go on for decades at
        the majority of sites, operation and maintenance activities, and the remedies they
        are associated with, are leading candidates for being site cost-drivers, and
        therefore, an area that EPA needs to be well informed about. Consolidated
        information on the efficiency and effectiveness of innovative or promising new
        cleanup remedies for hardrock mining sites, coupled with consolidated knowledge
        about the long-term efficiency and effectiveness of traditional or conventional
        remedies, potentially provide EPA with the foundation for implementing remedies
        that do not require decades of operation and maintenance investments, conserve
        Superfund resources, and ensure adequate long-term protection of human health
        and the environment.

    ‘   The projected length of operation and maintenance periods calls into question the
        ability of PRPs (or States) to be in a position to assume long-term financial
        responsibility for one or more sites. Consolidated information on the complete
        environmental liabilities of businesses engaged in hardrock mining and an
        evaluation of their ability to pay for liabilities can offer an important basis for fine-
        tuned EPA projections on sites that may not have a viable PRP.




                                           21
22
                              Chapter 3
                        Human Health Risk

This chapter reports information on current human health risks at sites in the inventory.
Human health risks, according to EPA officials, currently drive the prioritization for
funding the cleanup of NPL sites. An example of human health risk from the inventory
includes deaths. For example, hundreds have died from exposure to asbestos from a
vermiculite mine in Libby, Montana. Several other mine sites in the inventory reported
human health risks from exposure to lead; at these sites, a significant percentage of
children have blood lead levels above the acceptable limit.

For this survey, human health risk meant that one or more persons were at current risk for
exposure or potential exposure to a hazardous condition from a mining site. Current risk
does not address future human health risk which could be greater if areas containing mine
wastes are developed without site cleanup.




                                         23
What Are the Current Human Health Risks By NPL Status?

     Less than half of the current NPL hardrock mining sites were assessed as having a current
     high or medium human health risk. However, the largest percentage of NPL sites had
     current low human health risks. Risk may be low because removal or remedial actions
     have been completed at NPL sites7.




                            Human Health Risks at
                                 NPL Sites
                                       Total NPL Sites = 63


                                            10%
                                                             25%

                                                                                       High Risk
                                    48%                                                Medium Risk
                                                                                       Low Risk
                                                                                       Unknown
                                                               17%




     Figure 3.1
     Source: OIG Analysis of Inventory Data




      7
              EPA has reported that blood samples collected from children near some mining sites in the inventory before
              and after cleanups have shown an improvement with a reduction in the average blood lead levels.


                                                       24
Compared to NPL sites, a smaller portion (30 percent) of sites which the Superfund
program has in CERCLIS, but which have not yet been listed on the NPL, have a current
high or medium human health risk. The largest portion of sites (42 percent) were rated by
respondents as having a risk to human health that is currently unknown. Twenty-two (or
27 percent) of these sites are in Florida in Region 4 and are phosphate mining sites.




                     Human Health Risks at
                    CERCLIS/Non-NPL Sites
                      Total CERCLIS/Non-NPL Sites = 82


                                           10%

                                                               High Risk
                         42%                        20%
                                                               Medium Risk
                                                               Low Risk
                                                               Unknown


                                         28%




Figure 3.2
Source: OIG Analysis of Inventory Data




                                               25
Finally, there are 11 Potential (Non-CERCLIS/Non-NPL) sites in our database where
current human health risk was assessed. The smallest portion of sites had current high
human health risk. The majority of sites were either rated as currently having a low risk to
human health (36 percent), or were rated as having a human health risk that is still
unknown (55 percent). None of the sites had a medium current human health risk.




                 Human Health Risks at Potential
                 (Non-CERCLIS/Non-NPL) Sites
                 Total Potential (Non-CERCLIS/Non-NPL) Sites = 11




                                         9%

                                                                    High Risk
                                                                    Medium Risk
                             55%                                    Low Risk
                                              36%
                                                                    Unknown




Figure 3.3
Source: OIG Analysis of Inventory Data




                                         26
What Are the Human Health Risks by Region?

     The levels of current human health risks vary by region. Regions 7, 8, 9, and 10 have the
     most sites (12, 14, 11, and 7, respectively) with high and medium risk to human health.
     Region 4 has the most sites with unknown risk to human health.




                                             Human Health Risk
                            50
                                                by Region
                            45
                            40
                            35
          Number of Sites




                            30
                            25
                            20
                            15
                            10
                             5
                             0
                                 R-1   R-2   R-3   R-4   R-5   R-6     R-7   R-8   R-9   R-10
                                        Unknown    Low   Medium      High




     Figure 3.4
     Source: OIG Analysis of Inventory Data




                                                         27
Summary and Conclusions
    ‘   There is a mix, and some uncertainty, in judgments of the human health risks
        associated with current and potential future Superfund hardrock mining sites. For
        example, the majority of current NPL sites, as well as CERCLIS/Non-NPL sites,
        and the Potential sites, have current low or unknown human health risks. This
        indicates that to the degree EPA consistently relies on the use of high human health
        risk criteria to move sites into the Superfund program, our data do not suggest that
        the Superfund program will absorb all of the CERCLIS/Non-NPL or Potential
        sites. However, because a large percentage of both CERCLIS/Non-NPL and
        Potential sites have current human health risks that are unknown, it is not certain
        what risks these sites may pose and whether they will eventually move into the
        Superfund program.

    ‘   The larger number of high and medium risk sites in the western regions (8, 9, 10)
        and Region 7 implies that these regions may have greater needs for resources,
        guidance, and tools in addressing the impacts of hardrock mining sites and may
        place greater demands on the Superfund program.




                                         28
                             Chapter 4
              Ecological/Environmental Risk

In this chapter we present information regarding the ecological/environmental risk for the
mining sites in the inventory. This chapter shows risk ratings by status of the site and
shows the number of sites by ecological/environmental risk in each region. We also report
information on the relationship between current human health and
ecological/environmental risks.

For this survey, ecological/environmental risk meant that some portion of the
ecology/environment was at risk for exposure or potential exposure to a hazardous
condition from a mining site.




                                        29
What Are the Current Ecological/Environmental Risks By NPL Status?

     Half of the 63 NPL sites in the inventory are assessed as having a current high or medium
     ecological/environmental risk. Almost one-quarter of the NPL sites had an unknown
     current ecological/environmental risk.




                   Eco/Environmental Risk at
                          NPL Sites
                                Total NPL Sites = 63



                                    21%
                                               28%
                                                                        High
                                                                        Medium
                                                                        Low
                                  29%                                   Unknown
                                              22%




     Figure 4.1
     Source: OIG Analysis of Inventory Data




                                              30
For the 82 CERCLIS/Non-NPL sites, ecological/environmental risk appears to be a
concern for a greater number of sites than human health is, as a majority (64 percent) of
the sites had a current high or medium ecological/environmental risk. For the same sites,
human health risk was rated as being currently high or medium at only 30 percent of the
sites.




                  Eco/Environmental Risk at
                  CERCLIS/Non-NPL Sites
                     Total CERCLIS/Non-NPL Sites = 82


                                         11%
                                 23%
                                                                      High
                                                                      Medium
                                                                      Low
                              13%                                     Unknown
                                              53%




Figure 4.2
Source: OIG Analysis of Inventory Data




                                         31
There are 11 Potential (Non-CERCLIS/Non-NPL) sites in our database where the
judgments for current ecological/environmental risk were provided. Forty-five percent of
the sites had either a current high or medium ecological/environmental risk. Together, the
majority of sites were either rated as currently having a low current
ecological/environmental risk (9 percent), or were rated as having an
ecological/environmental risk that is unknown (46 percent).




                       Eco/Environmental Risk at
                Potential (Non-CERCLIS/Non-NPL) Sites
                       Total Potential (Non-CERCLIS/Non-NPL) Sites = 11



                                              18%

                                                                       High
                               46%                                     Medium
                                                                       Low
                                               27%
                                                                       Unknown

                                         9%




Figure 4.3
Source: OIG Analysis of Inventory Data




                                         32
What Are the Ecological/Environmental Risks by Region?

     Regions 8 and 10 have the most sites (11 and 5, respectively) with high
     ecological/environmental risk. Regions 4, 9, 8, and 10 have the most sites (25, 17, 17, and
     11, respectively) with high and medium ecological/environmental risk. All of the sites in
     Region 1 had high or medium ecological/environmental risk.




                                 Ecological / Environmental Risk
                          50
                                            by Region
                          45
                          40
                          35
        Number of Sites




                          30
                          25
                          20
                          15
                          10
                           5
                           0
                               R-1   R-2   R-3   R-4   R-5   R -6     R-7   R-8   R-9   R -10
                                      Unknow n   Low   M edium      High




     Figure 4.4
     Source: OIG Analysis of Inventory Data




                                                       33
What Is the Relationship Between Human Health and Ecological/Environmental Risk?

      The following matrix matches up current human health and ecological/environmental risks
      for sites in the inventory. Twenty-two percent of the sites (35) had a high or medium
      human health risk and ecological/environmental risk. Fifteen of the 35 sites had acid mine
      drainage.




                                     Health and Eco/Environmental Risk
                                                           (Nationwide)

                                             Ecological / Environmental Risk
                 Human Health Risk




                                                  High          Medium    Low      Unknown
                                                  ( 29 )         ( 60 )   ( 30 )    ( 37 )

                                        High
                                                    8              6        2         9
                                        ( 25 )

                                       Medium
                                                           35
                                                    6             15        3         3
                                        ( 27 )

                                        Low
                                                   13             12       24         8
                                        ( 57 )

                                       Unknown
                                                    2             27        1        17
                                         ( 47 )



      Figure 4.5
      Source: OIG Analysis of Inventory Data




                                                           34
Summary and Conclusions
    ‘   NPL sites and CERCLIS/Non-NPL sites were more commonly rated as having
        high ecological risks than human health risks. For example, while 42 percent and
        30 percent of NPL and CERCLIS/Non-NPL sites were rated as having high or
        medium human health risks respectively, 50 percent of NPL sites and 64 percent of
        CERCLIS/Non-NPL sites were rated as having high or medium ecological risks.

    ‘   The larger number of high and medium risk sites in the western Regions (8, 9, 10)
        and Regions 7 and 4 implies that these regions may have greater needs for
        resources, guidance, and tools in addressing the impacts of hardrock mining sites
        and may place greater demands on the Superfund program.




                                        35
36
                                     Chapter 5
                                   Cleanup Costs

In this chapter, we present information on projected cleanup costs of current Superfund
hardrock mining sites and potential future sites. This provides an indication of the
financial impact of these sites on the Superfund Trust fund and general revenue which
supports the program as well.8 This information, combined with data we presented in
chapters 2-4, provides context for evaluating the significance and relevance of the impacts.

Given uncertainties in estimating the costs of cleaning up a site that could potentially take
years to complete, we present several aspects of cost data. We present most of our data in
terms of maximum projected costs to avoid minimizing the potential liability associated
with these hardrock mining sites, as cleanup costs can often be underestimated.
Underestimation of cleanup costs can occur when inflation is not considered, when acid
mine drainage is inaccurately predicted, or when cleanup is delayed. One study suggests
that the discovery of inaccurately predicted acid mine drainage can increase site cleanup
estimates by 200 to 1000 percent or more. Costs to the Federal government may also
increase when a PRP defaults. For example, Asarco, which was the potentially
responsible party for several sites in the inventory, settled with the Federal government for
$100 million. One of the sites in the inventory owned by Asarco is estimated (by a
recognized expert in cost estimating cleanup of hardrock mining sites) to cost $457.1
million to clean up.

As a subset of this cost information, we present information on the maximum Federal
capital costs. (Capital costs are expenditures required to construct a remedial action. They
are exclusive of costs required for long-term operation and maintenance of the remedial
actions.) This amount represents our projection of costs to the Superfund Trust fund.
Finally, for context purposes, we present one chart which shows the costs associated with
sites that have at least one record of decision (ROD) completed.

We could not identify any uniform, most reliable, cost estimating standards or procedures
for hardrock mining sites. EPA did not provide us with evidence regarding the reliability
of projected cost estimates for hardrock mining sites or portions of sites, such as operable
units. We recognize that as EPA staff learn more about sites as they progress through the
Superfund program, the learning process could impact their judgments about costs to clean



8
        Until 1995, the Trust fund was financed primarily by a tax on crude oil and certain chemicals and an
        environmental tax on corporations. The authority for these taxes expired in December 1995 and has not been
        reauthorized; however, the Trust fund continues to receive revenue from interest accrued on the unexpended
        invested balance, recoveries of cleanup costs from potentially responsible parties, and collections of fines and
        penalties. The Trust fund has also received revenue from annual general fund appropriations that, along with
        its other revenues, have been used to fund the Superfund program’s operations.


                                                   37
     up a site. Cost estimates, like risk estimates, could increase or decrease based on the
     learning process or stage of a site in the Superfund program.

Trend in Superfund Budgets and Expected Future Demands

     In order to provide context for the cost data, we present EPA’s Superfund budget for the
     last 5 years. Figure 5.1 shows that EPA’s Superfund budgets have been about $1.2 billion
     for the last 5 years.




                    History of Congressional Appropriations
                     for the Superfund Program Since 1999
                      2
                    1.8
                    1.6
                    1.4
        Billion $   1.2
                      1
                    0.8
                    0.6
                    0.4
                    0.2
                      0
                           1999        2000        2001        2002         2003

                    Note:   Adjusted Base Superfund Appropriation
                    Source: EPA, Office of Solid Waste and Emergency Response


     Figure 5.1




                                                 38
In 2001, at the request of Congress, Resources for the Future estimated that EPA’s
Superfund program needs would be (in inflation-adjusted dollars) about $1.8 billion in
2003, generally declining to approximately $1.6 billion in 2009. These estimates exceed
historical appropriations and assume that only 2 mega-sites (sites that will cost $50 million
or more to clean up) and 33 non mega-sites will be added to the NPL annually. Resources
for the Future concluded that a significant “ramp-down” of the Superfund program was not
imminent.




                  Estimates of Future Costs to
                 EPA for the Superfund Program
                                      (RFF 2001)
             2
           1.8
           1.6
           1.4
           1.2
  Billion $ 1
           0.8
           0.6
           0.4
           0.2
             0
                  2003     2004    2005    2006    2007     2008     2009




Figure 5.2
Source: Resources for The Future




                                          39
What Are the Total Maximum Projected Costs As Reported by Regional Site
Managers?

     Overall potential cleanup costs for mining sites are extremely large relative to EPA’s total
     Superfund budgets. While we did not estimate yearly costs, our data show that maximum
     cleanup costs will be approximately $24 billion and, at a minimum, will be about $7
     billion. These maximum projected cleanup costs and the associated cleanup
     responsibilities will not all be due immediately, and they may not all fall to EPA.




                         Total Projected Cleanup Costs
                                    (All 156 Sites Nationwide)

                    25

                    20
       Billions $




                    15

                    10

                     5
                            Total Cost                    Total Cost
                           $24.3 Billion                  $6.8 Billion
                     0

                           Maximum                        Minimum




     Figure 5.3
     Source: OIG Analysis of Inventory Data




                                                 40
For Sites With RODs, What Are The Cost Estimates?

     The Agency’s Superfund Program Director suggested that cost information for sites with
     RODs (the public document in which EPA identifies the cleanup alterative to be used at an
     operable unit of a site) would generally be more accurate.9 Because information was
     reported to us on a site-wide basis in our survey, we did not have individual operable unit10
     information in the database. Subsequently, we asked site managers to provide us with
     current individual operable unit information. Site managers at 102 of the sites in the
     database were able to provide cost estimates and current site status for operable units.
     Some sites had achieved more than one ROD while others had not achieved a ROD.

          102 Sites Provided Current Operable Unit Status
                               Sites with at Least One                          Sites without a
                                ROD or Equivalent11                            ROD or Equivalent
     NPL                                       29                                           13
                                   ( 22 are EPA Lead )                           ( 10 are EPA Lead )

     CERCLIS/                                  12                                           43
     Non-NPL                        ( 8 are EPA Lead )                           ( 33 are EPA Lead )

     Potential                                  0                                            5
     (Non-                                                                         ( 1 is EPA Lead )
     CERCLIS/
     Non-NPL)
     TOTALS                                   41*                                         61**

     Figure 5.4
     Source: OIG Analysis of Inventory Data

     * The 41 sites with at least one ROD account for $5.4 billion of the maximum projected
     cleanup costs, and $800 million of the maximum Federal capital costs.
     ** The 61 sites without a ROD account for $14.1 billion of the maximum projected
     cleanup costs, and $11.8 billion of the maximum Federal capital costs.



      9
              We did not test this assumption, although it is consistent with assumptions of Superfund cleanup cost
              estimating guidance.
      10
              A distinct project of the overall site cleanup. Sites can be divided into operable units based on the media to
              be addressed (such as groundwater or contaminated soil), geographic area, or other measures.
      11
              A ROD equivalent is an Engineering Evaluation/Cost Analysis, no further action, or a State voluntary
              cleanup program decision.


                                                         41
What Does Cost Information By NPL Status Tell Us About Impacts to the
Superfund Program?

      We are presenting the cost information by NPL status because NPL status is an important
      indication of EPA’s current liability. EPA cannot use Superfund resources for long-term
      cleanup until a site is listed on the NPL. Therefore, total maximum cleanup costs are
      broken down into each NPL status category.

      A majority (61 percent) of the total maximum projected cleanup costs are for sites that are
      in the inventory and in CERCLIS, but have not been officially added to the program by
      being listed on the NPL.




                                   Total Maximum
                        Projected Cleanup Costs by NPL Status
                   16                                  $14.8 Billion

                   14

                   12

                   10
      Billions $




                          $7.8 Billion
                    8

                    6

                    4

                    2                                                            $1.7 Billion

                    0
                             NPL                     CERCLIS/Non-NPL     Po tential (No n-CERCLIS/Non-
                                                                                       NPL)

                                         Total = $24.3 Billion for all 156 Sites


      Figure 5.5
      Source: OIG Analysis of Inventory Data

      At least nineteen of the NPL sites in this hardrock mining inventory have estimated
      cleanup costs of $50 million or more.



                                                       42
Federal Capital costs are the costs expected to be paid by the Federal government and
represent the real and potential financial impact on the Trust fund. Figure 5.6 shows the
amount of the maximum projected cleanup costs that are projected to be Federal Capital
costs.



                             Maximum Projected Federal
                             Capital Costs by NPL Status
              16
                                                       (Nationwide)
              14

              12                                                     $11.4 Billion:

              10
 Billions $




               8

               6

               4
                                       $2.4 Billion:
               2                                                                                  $1.0 Billion:

               0
                             NPL                       CERCLIS/Non-NPL          Po tential (No n-CERCLIS/Non-
                                                                                              NPL)
              Federal Capital Costs Portion of Maximum
              Projected Cleanup Costs
      Total Projected Federal Capital Costs = $14.8 Billion (Nationwide)


Figure 5.6
Source: OIG Analysis of Inventory Data

For the 63 NPL sites, Federal costs equal approximately $2.4 (31 percent) of the $7.8
billion maximum projected cleanup costs.

For the 82 CERCLIS Non-NPL sites, Federal capital costs are expected to comprise
approximately $11.4 billion (77 percent) of the $14.8 billion maximum projected cleanup
costs. Twenty-two of these sites reported Federal capital costs of $100 to $500 million
each. All of these sites are in Region 4.

For the 11 Potential (Non-CERCLIS/Non-NPL) sites, Federal costs are expected to be
approximately $1.0 billion (59 percent) of the $1.7 billion projected maximum cleanup
cost.




                                                               43
Next are maximum projected cleanup costs by region. Cleanup costs are concentrated in
Region 4.




                               Maximum Projected
              12
                             Cleanup Costs by Region
              10


              8
 Billions $




              6


              4


              2


              0
                   1   2         3       4         5        6   7     8       9   10
                                             EPA Regions

                           Federal Capital Costs                Total Costs


Figure 5.7
Source: OIG Analysis of Inventory Data

As shown earlier, over half (55 percent) of the 156 sites are located in three regions (8, 9,
10). However, Region 4 is accounting for approximately 50 percent, or about $11 billion,
of the total projected maximum cleanup costs. Regions 4, 7, and 8 had the highest
amounts, respectively, of projected Federal capital costs.




                                                       44
What Does Projected Cost Compared with Risk Information Tell Us?

     Figures 5.8 and 5.9 show the maximum projected Federal capital costs for human health
     risks for NPL sites and for CERCLIS Non-NPL sites, respectively. The left side of each
     figure shows the allocation of the maximum Federal capital costs by human health risk,
     while the right side shows the total number of sites as rated by human health risk category.




             Maximum Projected Federal Capital Costs
                   for Human Health Risks
      NPL Sites
                                                                  Total Number of
            Maximum Projected Federal Capital
                                                                   NPL Sites = 63
                Clean-up Costs: $ 2.4 Billion



                                                                   10%

                                                                              25%
                     32%



                                      66%                        48%
                                                                                 17%




              High   Medium     Low    Unknown            High   Medium    Low      Unknown



     Figure 5.8
     Source: OIG Analysis of Inventory Data

     For NPL sites, 66 percent of the maximum projected Federal capital costs will be needed
     for 25 percent of the high risk sites.




                                                 45
          Maximum Projected Federal Capital Costs
                for Human Health Risks
  CERCLIS/Non-NPL Sites
         Maximum Projected Federal Capital                   Total Number of
             Clean-up Costs: $ 11.4 Billion             CERCLIS / Non-NPL Sites = 82




                                                                       10%



                                                             42%             20%

                         96%

                                                                       28%




            High   Medium      Low   Unknown          High    Medium   Low    Unknown




Figure 5.9
Source: OIG Analysis of Inventory Data

For the CERCLIS Non-NPL sites, 96 percent of the $11.4 billion maximum projected
Federal capital costs are projected to be needed for 42 percent of the sites with a current
unknown human health risk. Conversely, only 2 percent of the maximum Federal capital
costs are projected to be needed for 10 percent of the CERCLIS Non-NPL sites that are
assessed as having a current high human health risk. In total, nearly 100 percent of
estimated Federal costs to clean up CERCLIS/Non NPL hardrock mining sites in the
inventory are projected for sites that predominantly are considered to have current low risk
or have a current unknown human health risk. EPA has indicated that almost all of these
CERCLIS Non-NPL sites are in regions, including the State of Florida in Region 4, where
the availability of water and the quality of the available water are issues of paramount
public concern. EPA states that contaminated water impacts the health of living resources
and also agriculture, municipal, and industrial water supplies, and commercial recreation.
The socioeconomic effects of contaminated water include the increased costs of water
treatment where practicable, the costs of developing additional sources of water where
contaminated water cannot be rendered useful through treatment, and ancillary effects such



                                              46
as the inability of urban and rural subsistence fishermen to obtain a safe protein
component for their diet.

Figures 5.10 and 5.11 show the maximum projected Federal capital costs for
ecological/environmental risks for NPL sites and for CERCLIS Non-NPL sites,
respectively. The left side of each figure shows the allocation of the maximum Federal
capital costs by ecological/environmental risk, while the right side shows the total number
of sites by ecological/environmental risk category.




         Maximum Projected Federal Capital Costs
              for Eco/Environmental Risks
NPL Sites
       Maximum Projected Federal Capital                     Total Number of
           Clean-up Costs: $ 2.4 Billion                      NPL Sites = 63




                                                            21%
                            19%                                           28%
             29%

                                   7%

                                                            29%

                                                                         22%
                      45%




         High   Medium      Low   Unknown            High   Medium    Low      Unknown




Figure 5.10
Source: OIG Analysis of Inventory Data

Nineteen percent of the $2.4 billion maximum projected Federal capital costs are expected
to be needed for 28 percent of the NPL sites assessed with a current high
ecological/environmental risk.




                                            47
        Maximum Projected Federal Capital Costs
             for Eco/Environmental Risks
CERCLIS/Non-NPL Sites
      Maximum Projected Federal Capital                  Total Number of
          Clean-up Costs: $ 11.4 Billion            CERCLIS / Non-NPL Sites = 82




                                                         23%       11%




                                                         13%
                      98%
                                                                         53%




         High   Medium      Low   Unknown         High    Medium   Low    Unknown




Figure 5.11
Source: OIG Analysis of Inventory Data

Nearly 100 percent of the maximum Federal capital costs are projected to be needed for 53
percent of the sites where a medium risk was assessed. No funds were expected to be
needed for the 11 percent of the CERCLIS Non-NPL sites assessed with high risk.




                                            48
Summary and Conclusions
    ‘      We have identified 156 hardrock mining sites across the country that have the
           potential to cost between $7 billion and $24 billion to clean up. We have not
           projected the yearly costs to EPA. The total maximum cleanup costs to EPA for
           the hardrock mining sites we identified are estimated at $15 billion. Although
           these costs will not all be due immediately, comparison of these costs to EPA’s
           annual Superfund program budgets for the last 5 years (about $1.2 billion) suggests
           these costs, alone, could present a significant management challenge. The
           challenges that are suggested by the hardrock mining inventory are amplified by
           the fact that EPA’s Superfund program has experienced shortfalls in the last
           2 years, resulting in some cleanup activities being stopped, and program increases
           are not anticipated.

    ‘      Because Region 4 is accounting for almost half of the total projected cleanup costs
           we report ($11 billion out of $24 billion), the region is likely to place extreme
           demands on the Superfund program and may have a greater need for resources,
           guidance, and tools in addressing the impacts of hardrock mining sites.

Agency Comments and OIG Evaluation

    The Agency commented that the report uses the maximum estimated cleanup costs from
    the cost range reported by the survey respondents. For example, they believed Region 4
    filled out the survey using the $100 to $500 million cleanup cost estimate for the 22
    phosphate mining sites in Florida. The Region believes that site cleanup costs will most
    likely fall at the lower end of the $100 to $500 million range. The difference between the
    low and high end of the cost for these 22 sites is about $8.8 billion. As we've stated
    elsewhere in our report cost estimates can be inaccurate. The inaccurate prediction of acid
    mine drainage can increase these costs by up to 1000 percent or more. None of the 22
    phosphate mining sites in the inventory in Region 4 have reported the presence of acid
    mine drainage, and therefore, haven’t accounted for the likelihood of acid mine drainage in
    their cost estimates. This is despite several recent articles that indicate that the highly
    acidic water in the sites’ lagoons have leaked and spilled and contaminated ground and
    surface water supplies and killed fish and vegetation. Further, as a result of a recent
    bankruptcy of a company that mined phosphate in Florida, the State of Florida has
    concluded that State financial assurance requirements (requirements that make sure that
    funds are available to clean up a facility should the PRP go bankrupt or abandon the site)
    need to be strengthened so that the taxpayer does not bear the burden of paying for future
    clean ups. Florida indicated it never considered a phosphate mining company would go
    bankrupt.




                                            49
50
                                   Chapter 6
             Conclusions and Recommendations


Summary and Conclusions
    We have identified 156 hardrock mining sites across the country that have the potential to
    cost between $7 billion and $24 billion to clean up. The total maximum cleanup costs to
    EPA for the hardrock mining sites we identified are estimated at $15 billion. Although
    these costs will not all be due immediately, comparison of these costs to EPA’s annual
    Superfund program budgets for the last 5 years (about $1.2 billion) suggests these costs,
    alone, could present a significant management challenge for the Superfund program. The
    challenges that are suggested by the hardrock mining inventory are amplified by the fact
    that EPA’s Superfund program has experienced shortfalls in the last 2 years, resulting in
    some cleanup activities being stopped, and program increases are not anticipated.

    The management and financial challenges from current and potential future hardrock
    mining sites are not proportionately distributed throughout the country. Region 4 is
    accounting for almost half of the total projected cleanup costs reported ($11 billion out of
    $24 billion). The western regions (8, 9, 10) have more mining sites than other regions, and
    in addition to Region 7, have more sites that pose high-medium ecological and human
    health risks.

    Although a potentially responsible party has been identified at 83 percent of the hardrock
    mining sites, uncertainties about the complete nature of these parties’ liabilities and their
    ability to pay for cleanup actions over the extreme long-term counteract the positive news
    that many have been identified. We found that 70 percent of current Superfund sites have
    a clearly viable potentially responsible party, and 33 percent of sites in CERCLIS and 27
    percent of other potential sites have an identified viable potentially responsible party.
    However, our data also show that at the majority (59 percent) of sites, the projected
    operation and maintenance period for the cleanup remedy is 40 years to “in perpetuity”.

    Overall, our research, considered in context with the financial challenges the Superfund
    program is currently facing, demonstrate that some key actions need to be taken to enhance
    the effectiveness of Agency decision-making and planning ability with regard to the
    substantial impacts that hardrock mining are projected to have. Specifically, factors that
    can effect how much EPA, or other parties, may pay for cleanup of hardrock mining sites
    include PRPs’ long-term viability, efficiency and effectiveness of existing hardrock
    mining cleanup remedies, and potential efficiency and effectiveness of innovative or
    promising hardrock mining cleanup technologies. Factors that can effect how EPA will
    need to direct its limited resources include which regions have a high concentration of
    hardrock mining sites, or have sites that pose higher risks than other locations. At a


                                             51
    minimum, an appropriate understanding of these factors will raise the Agency’s capacity
    to plan for financial impacts to the Superfund program from hardrock mining sites and
    develop reasoned, preventative, strategies and program guidance that could minimize
    financial and environmental impacts.

Recommendations
    In view of our analysis of the information EPA officials have provided to us, we
    recommend that the Assistant Administrator for the Office of Solid Waste and Emergency
    Response lead, implement or co-implement as appropriate, and as their jurisdiction and
    authority permit:

    (1)    A review and analysis of:

           (A)    the long-term sustainability, and complete environmental liability of
                  businesses involved in current or inactive hardrock mining operations.

           (B)    the type of remediation technologies (engineered or non-engineered) that
                  are in use at existing Superfund hardrock mining sites, and other hardrock
                  mining sites under EPA’s jurisdiction. The review should address the
                  projected long-term costs and period of operation of the remediation
                  technologies, assuming a stated cleanup standard.

           (C)    innovative, alternative, or promising new remediation technologies
                  (engineered or non-engineered) that identify enhanced efficiency and
                  effectiveness in addressing remediation of hardrock mining sites and
                  associated waste. The review should address the projected long-term costs
                  and period of operation of the remediation technologies, assuming a stated
                  cleanup standard.

    (2)    Continue to support Agency programs and activities related to developing
           improvements in the Agency’s National Hardrock Mining Framework and
           developing and sustaining Agency expertise in hardrock mining.

    (3)    Prioritize Agency assistance and guidance on hardrock mining site management
           issues based on the immediate risks and overall potential workload that a region is
           expected to encounter based on the region’s hardrock mining profile.

Agency Comments and OIG Evaluation

    The actions the Agency has proposed to address our recommendations are generally
    acceptable as long as the Agency produces tangible evidence, for OIG review, in lieu of
    the report we recommended, to substantiate completion of their actions. The Agency
    needs to provide milestones for the completion of these actions.


                                            52
                                                                                      Appendix A



          Summary of the General Mining Law of 1872

The General Mining Law of 1872 was passed to encourage mineral resource development and the
settlement of the Western United Sates. As amended it offers easy private access to hardrock
mineral resources on open public domain lands. The law allows individuals and corporations to:
1) freely prospect for hardrock minerals on Federal lands; 2) mine the land, if an economic deposit
is found; 3) sell the extracted minerals without reimbursing the Government; and 4) purchase, or
“patent,” the land for a nominal sum of $2.50 or $5.00 an acre. Once patented, the mining claim
becomes a recognized private interest that can be traded or sold. As a consequence, mineral and
economic development in the West has been significant. The General Accounting Office
estimated in 1992 that “over 3.2 million acres of Federal land had been patented under the 1872
law.” Arguments in favor of little or no change to the 1872 Law are made on the grounds that it
“embodies principles important to efficient mining: self-initiation of mineral rights, access to
prospects, exclusive right to develop a prospect, and security of tenure to ‘hold’ a discovery.”

Critics of the 1872 Law say it is outdated and that the Government (as a steward of the land for its
citizens) gets very little return for making the land and mineral resources available. Because the
effective price paid by mining companies to use Federal lands and extract the minerals does not
equal the economic value of neither such use nor of the minerals, the 1872 Law “effectively
transfers wealth from the U.S. public to the hardrock mining industry.” Moreover, discrepancies
between Federal and State bonding requirements for mined lands have caused concerns that a land
patenting provision of the 1872 Law provides mine operators relief from the stricter Federal
bonding requirements. The main concern is that some States' regulations have not kept pace with
Federal regulations in requiring sufficient financial assurances to restore the land if owners cannot
do so. A 1994 Congressional Research Service Report for Congress cites several economic
arguments for reform of the law: 1) because the U.S. hardrock mining is a mature industry and the
West is now economically developed, the 1872 Law is obsolete; 2) the 1872 Law pays little mind
to values embodied in environmental concerns or to alternative uses of the land; 3) as a matter of
economic equity, citizens, who as a whole own the land and the minerals, should receive fair
value; 4) shortcomings in the law that invite abuse of the claim and patent system diminish the
intended economic benefits; 5) treatment of hardrock mining under the 1872 Law is inconsistent
with the treatment of extractive industries on other Federal lands.




                                                 53
54
         Appendix B

Survey




  55
56
57
58
59
60
61
62
                                                                                                                 Appendix C

                       Details on Scope and Methodology

        Our evaluation question was: “Is there a financial impact on the Trust fund and on States
        from hardrock mining sites?” The report summarizes the first part of the evaluation that
        will be used to answer the objective. In order to answer the evaluation question, we
        needed to obtain an inventory of hardrock mining sites. We defined the sites to be
        included in the inventory as all non-coal mines, mills, and primary smelters that had cost
        or have the potential to cost the Trust fund $1 million or more.

        To collect site-specific information, we developed a survey instrument that we sent to EPA
        officials in all 10 EPA regions (see Appendix B). The survey comprised several sections
        of questions that addressed:

        •          general information of the site, including its name, location, current cleanup status,
                   type of mine (i.e, gold, silver, phosphate, etc.) and if the site was a current or
                   prospective site of EPA concern;

        •          the Superfund status of the site (i.e., NPL, CERCLIS Non-NPL, or Potential [Non-
                   CERCLIS/Non-NPL] ) and its current lead responsibility;

        •          cost information for the site in a series of cost ranges, including each site’s past
                   costs, total projected cleanup costs, capital costs, maintenance costs, and removal
                   costs;

        •          the media that had been affected at the site, including the presence of acid mine
                   drainage, and the current human health and ecological/environmental risks (high,
                   medium, low, or unknown) as rated by the survey respondents: and,

        •          the regional survey respondent’s opinion of PRPs’ viability.

        As mentioned above, we asked regional officials to provide information on human health
        and ecological risk. Since the Hazard Ranking System is not an effective tool for
        measuring relative risk12, we developed a framework for focusing on relative risk. We
        created the three general risk assessment tiers of high, medium, and low. We also asked
        regional officials to identify sites where the human health risks were unknown. By using

            12
               According to EPA, the Hazard Ranking System is not a risk assessment tool, but rather, a way to screen out sites
that are not likely to be of sufficient risk to warrant NPL listing, and at the same time, provide enough information for the
purpose of, according to 40 Code of Federal Regulations Part 300, “identifying for the States and the public those facilities and
sites which appear to warrant remedial actions.” The tool is not effective for measuring relative risk because: (1) site managers
do not always score all pathways because once they reach 28.5, they stop scoring, (2) the original Hazard Ranking System versus
the revised Hazard Ranking System is not comparable, (3) it is difficult to compare potential risk to actual risk, and (4) the score
may not accurately reflect risk.


                                                               63
these assessment tiers, the team planned to gain an understanding of the relative risk for
mining sites in the universe. We did not specifically define these assessment tiers; rather,
we expected that these assessments would be subjective, and based upon the site
manager’s experience. However, we did gather information on the factors that contributed
to the site managers’ assessments.

It is possible that the risk a site posed at NPL listing is different than the current risk which
we asked about. For example, when a site was originally listed on the NPL it might have
been subjectively rated as a high risk. However, due to remediation efforts or removal
actions, the site may now be rated as a low risk. In addition, it is possible that if the
remediation for a current low risk site is not maintained, it could become a high risk site.
We did not verify the risk ratings assigned by the respondents, and it is possible that the
respondents were not risk assessors.

In developing the survey, we met with EPA headquarters officials from OSWER and
OECA. We also consulted with members of EPA’s NMT and EPA’s AMLT asking for
input and suggestions. In addition, we field tested the survey instrument with EPA
headquarters and regional officials in May 2002. We revised the survey instrument to
include appropriate EPA officials suggestions, clarifications, and comments.

In August 2002, we sent the survey instrument along with instructions to mining site
managers and management officials in EPA’s 10 regional offices and at Headquarters. In
December 2002, we asked regional management officials to confirm or correct
information for each site specific survey response entered into the OIG survey database.

In February and March 2003, we performed fieldwork in Regions 7 and 8. We conducted
data verification for selected sites in these regions. We focused our data verification
efforts on cost data, and human health and environmental/ecological risk data, and the
status of cleanup. Verification for the purposes of this evaluation meant that we asked
regional officials to verify survey information submitted into the database to make sure
that it was accurate and complete. It also meant asking for explanations of certain data and
obtaining selected documentation where available. We also asked regional officials:

‘      to identify guidance documents used to develop the cost estimates in the survey
       responses.
‘      for the documentation that supported the cost estimates, and where none was
       available, we asked for regional officials to explain the logic they used to develop
       the cost estimates.
‘      for supporting documentation for the ratings decisions for current human health
       and ecological/environmental risks that were rated as high, medium, low, or
       unknown.
‘      to answer a series of structured interview questions and checklists relating to their
       survey responses in order to add support for the information contained in their
       survey responses. For our visit to Region 8, we refined this set of supporting



                                           64
       interview questions and checklists to again gain additional support for the
       information in survey responses.
‘      to review their earlier submitted survey responses and to verify the accuracy of, or
       correct, the information they provided for these hardrock mining sites.

We also conducted a site visit of the Clear Creek Mine site in Region 8.

In April 2003, we asked officials in the remaining eight Regions to answer the same series
of supporting questions and checklists we used for our interviews in Region 8. We made
some slight modifications so that we could send these electronically to the other regions.
Again, we asked regional site managers and officials to review their earlier submitted
survey responses and to verify the accuracy of, or correct, the information they provided
for these hardrock mining sites. At the conclusion of our data verification process in June
of 2003, we had received an approximate 90 percent response rate for the supporting
information for the sites entered into the OIG database.

We reconciled the OIG universe to the universe of sites compiled by the AMLT. We
determined that 156 of the site specific survey responses met our definition for hardrock
mining sites that had either cost or had the potential to cost the Superfund Trust fund $1
million or more. While we used this inventory to help answer our evaluation question, we
recognize this inventory may be understated. It does not include coal sites by definition
and it does not include all Federal sites, sites that States may not have shared with EPA,
sites which are too early in the process to identify them as meeting our definition, and
hardrock landfill or dump sites. It may also be understated based on the regional officials’
interpretation of the OIG definition of sites to be included in the database. Also, we did
not presume that sites that were not NPL sites would ever make it to the NPL, though
respondents did indicate sites where they believed the Federal government might
eventually be needed to fund the cleanups.




                                         65
66
                                                                                     Appendix D

                  Agency Response to Draft Report



March 5, 2004




MEMORANDUM

SUBJECT:       OSWER Response to the Office of Inspector General’s Evaluation Report entitled
               “Nationwide Identification of Hardrock Mining Sites”

FROM:          Marianne L. Horinko/s/
               Assistant Administrator
               Office of Solid Waste and Emergency Response

TO:            Carolyn Copper
               Director of Program Evaluation: Hazardous Waste Issues
               Office of Inspector General

        This memorandum transmits the consolidated response from the Office of Solid Waste and
Emergency Response (OSWER), the Office of Research and Development (ORD), the Office of
Radiation and Indoor Air (ORIA), the Office of Federal Activities (OFA), the Office of Water,
the EPA National Mining Team (NMT), and the Abandoned Mine Lands Team (AMLT) on the
Office of Inspector General’s (OIG) Draft Evaluation Report entitled “Nationwide Identification
of Hardrock Mining Sites” issued in February 2004. We would like to convey our appreciation
for the significant effort the OIG staff put into gathering information, developing findings and
providing recommendations.

         The Agency has significant concerns regarding the interpretation and analysis of
information contained in this draft on the risk levels found at National Priorities List (NPL) and
non-NPL hardrock mining sites. We also have concerns with the cleanup cost estimates in the
report. Despite these concerns, the Agency agrees with most of the recommendations laid out in
the draft report.

       This memorandum highlights our concerns. We are also providing specific comments and
replacement language in Attachment A. We request that the OIG revise the draft report to
incorporate our comments.



                                                67
Risk Levels at Hardrock Mining Sites:

         We are concerned that the report concludes that there are low to unknown human health
risks at many of the hardrock mining sites (Executive Summary and Chapters 3 and 6). The
Agency has, over the last 20 years, placed mine sites on the NPL because they presented

potentially significant risks to human health and the environment. During that period, a variety of
remedial and removal actions have been implemented by the Agency and by Potentially
Responsible Parties (PRPs) which have led to significant reduction in risks at these sites.
Therefore, the report should explain that many of these sites have low current risk due to early
Agency or PRP response actions taken in prior years. The report should also note that Superfund
site response is designed to control both current and future exposures, but the survey asked only
about current risks.

        The Agency recommends that language in the Executive Summary and Chapters 3 and 6
be revised to state the following: “There is some uncertainty regarding the level of human health
and environmental risk at the NPL sites and sites included in CERCLIS. The regional field
personnel who responded to the questionnaire were asked to broadly characterize “current risk” at
the sites as high, medium, low, or unknown. This called for a subjective opinion of current
conditions that did not account for the risks that were previously reduced.”

        The Executive Summary and Chapters 3 and 6 should be further revised to recognize that
“Future risks at NPL sites may be substantially higher than current risks because portions of these
sites may be developed in the future, and this development could significantly change risks posed
at these sites.” For example, some sites on the NPL may be currently zoned for commercial or
industrial land use. This designation could change in the future to residential land use, thereby
increasing the risks posed by the contaminated property.

        The Report should also note that many of the non-NPL sites have not undergone a full risk
characterization. Since these studies have not been completed, it is highly unlikely that the survey
respondents would have enough information to accurately characterize a site as having a high,
medium, low or unknown risk. Even though the questionnaire asked for the basis of this broad
characterization of risk (e.g., risk assessment, past experience or professional judgment), the
report itself does not reflect the bases of the risk characterization. For example, the report does
not indicate what portion of the medium risk sites was based on actual risk assessment as opposed
to the person’s past experience or professional judgment.

Costs to Address Hardrock Mining Sites:

        The report gives the overall impression that cleaning up the 156 sites will be very
expensive and beyond the capability of the Superfund program. This impression is conveyed by
giving equal weight to costs for NPL and non-NPL sites, and doing a good deal of the analysis
based only on maximum estimated costs. The report should note that many of these sites may
never rise to Superfund attention because the risks do not warrant such actions, or these sites may
be addressed by site owners and operators under state or Federal regulatory programs.



                                                68
        Our major concern is that the report uses the maximum estimated cleanup costs from the
cost range reported by the survey respondents. For example, Region 4 filled out the survey using
the $100 to $500 million cleanup cost estimate for the 22 phosphate mining sites in Florida. The
Region believes that site cleanup costs will most likely fall at the lower end of the $100 to $500
million range. The difference between the low and high end of the cost for these 22 sites is about
$8.8 billion ($2.2 billion versus $11 billion). This is a major difference in total costs, and we
request that the report explain that cost estimates represent the upper boundary of a cost range
which may be significantly lower.

        The Agency also requests that the OIG report use different types of cost estimates based on
the reliability of costing data. For example, there are a limited number of sites where EPA or the
state has calculated a site specific cleanup cost. The cost estimates for those sites should be
identified and separated from the cost estimates for the other sites.

        An illustrative example of this is the cost data provided by Region 4. The Region
indicated that these data are very speculative because they are based on uncertainties regarding the
extent of the problems, contaminant levels, cleanup criteria, and whether the sites will be
enforcement vs fund-lead. Region 4 conducted some initial cost calculations for the cleanup of a
500 home subdivision and estimated a cost of $375,000,000. The Region then extrapolated this
data over the 40,000 acres of residential development and the even larger nonresidential mining
areas. Using this approach, it is easy to calculate cleanup costs in the billions of dollars.

        Another factor that needs to be considered in presenting costs is whether PRPs will pay for
these cleanups, or states will take the lead in addressing these hardrock mining sites. The report
indicates that $13.8 billion (maximum estimate in Figure 5.6) will be needed to cleanup sites
which pose a risk to human health. The report should note that until the Agency determines if
viable PRPs exist or states are willing to take the lead, the extent of EPA Superfund lead
expenditures cannot be determined. The IG does address this issue in the survey since they asked
respondents to determine if a PRP existed. However, the Agency believes that many respondents
noted that there was no PRP because a PRP search had not yet been conducted.

OIG Report Recommendations:

        The report provides several good recommendations that, if implemented, would enhance
the effectiveness of Agency decision-making at hardrock mining sites. The Agency generally
agrees with the recommendations but disagrees that it should prepare a report on all these actions.
The Agency proposes to do the following:

•      The Office of Solid Waste and Emergency Response, through the AMLT, will work with
       the Office of Site Remediation Enforcement to conduct an analysis of the environmental
       liability of businesses involved in current hardrock mining operations.

•      The AMLT will work with the Regions to analyze the type of remediation technologies
       that are in use at Superfund hardrock mining sites to capture the capital and long-term
       costs and period required to meet cleanup standards. The AMLT will add this data into
       the upcoming abandoned hardrock mines website.


                                                69
•      The AMLT will work with the Technology Innovation and Field Services Division in the
       Office of Superfund Remediation and Technology Innovation and the Office of Research
       and Development and Federal land management agencies to identify innovative or new
       remediation technologies which may potentially be used to address hardrock mining sites.
       The AMLT will hold a technical workshop next year with the Regions, ORD and other
       federal, state and tribal agencies on the applicability of innovative and other new
       technologies at hardrock mining sites. The AMLT will add new information, as it
       becomes available, to the upcoming abandoned hardrock mines website.

•      The Agency will continue supporting programs and activities related to improving the
       Agency’s Hardrock Mining Framework and developing and sustaining Agency expertise
       in hardrock mining through activities of the AMLT and NMT.

•      The NMT will work with the team representatives from the regions having the greatest
       level of mining activity (Regions 4,7,8,9,and 10) to assess technical or other guidance
       needs on hardrock mining management issues. The NMT will update senior Agency
       management on high priority issues raised by any Region.

We appreciate the opportunity to respond to this draft report. Should you have any questions
concerning our comments and action items, you may contact Shahid Mahmud at
703-603-8789 or Johnsie Webster, OSWER Audit Liaison, at 202-566-1912.

Attachment




                                               70
ATTACHMENT
                          Specific Comments/Recommended Language

A.     Comments related to Risk Levels at Hardrock Mining Sites:

 No.   Chapter, page        Comment
 1.    Executive            Comment:
       Summary, Results
                            The characterization of human health risk as low should be
                            qualified to acknowledge that this was based only upon current
                            exposures and risk at the time of the survey, and that neither the
                            survey nor the report addresses exposures and risk which might be
                            expected in the future. It should also be noted that some of the
                            sites addressed may have had removal actions completed before the
                            survey, thereby lowering the risk that existed at the time of the
                            survey.

                            Proposed Alternative Language:

                            The Regional field personnel who responded to the questionnaire
                            in Appendix B were asked to characterize “current risk” at the sites
                            as high, medium, low, or unknown. This called for a subjective
                            opinion that did not account for the risks that would lead to a site
                            being listed on the NPL. Current risks might be low because
                            removal actions or remedial actions had already been completed.
                            Further, risks at NPL sites may be substantially higher because
                            portions of these sites may be developed in the future and this
                            development could significantly increase risks posed at these sites.
                            Superfund site remediation is designed to reduce or control both
                            current and future exposures.
 2.    Executive            Comment:
       Summary,
       Recommendations      While we agree that immediate threats to human health in general
       page ii              warrant a quicker response than less immediate threats, the
                            prioritization discussed in the last sentence on page ii should not be
                            limited to immediate impacts. Prioritization of sites with
                            contaminants like lead, cadmium and arsenic need to recognize that
                            such contaminants are environmentally persistent and tend to
                            bioaccumulate. It can sometimes take years for human health
                            exposures to cause toxic effects. These contaminants pose very real
                            human health threats of a chronic nature, which should be reflected
                            in prioritization and in this discussion.




                                              71
3.   Chapter 1, page 5   Comment:

                         It is unclear whether current mining practices cause less
                         contamination and environmental damage than practices in the
                         past. Unless a significant number of recently mined sites, with
                         more advanced practices for environmental protection, are being
                         addressed as Superfund sites, we recommend that this text be
                         modified, or at least note its limited relevance to Superfund sites.
4.   Chapter 1, page 7   Comment:

                         The third of the five bullets on page 7, which describe the survey,
                         should be emphasized to reflect that only current risk was
                         characterized. It should be clear that the survey did not address
                         changes in reasonable future land uses. Certain changes (e.g.,
                         industrial to residential, or encroachment of human populations in
                         areas which were historically remote) could lead to substantially
                         greater risks which would go unabated unless the sites were
                         cleaned up to protective standards.
5.   Chapter 1, page 8   Comment:

                         The fourth bullet on the Limitations of the Information collected
                         speculates that actual risk today may be even less than at the time
                         of the survey because cleanup may have been provided for some of
                         these sites after the survey. While this may be possible, the report
                         should acknowledge that risks may also be higher. Land
                         development pressures into areas of mine waste contamination may
                         lead to greater human exposures and risk in the future than those
                         which existed at the time of the survey. In support of this position,
                         we note that the National Contingency Plan (40 CFR Part 300, the
                         regulations for Superfund) states that risk assessments, upon which
                         remedy selection is based, are to address reasonable maximum
                         exposures, which go beyond current risk.

                         Proposed language at the end of the 4th bullet:

                         However, it is also likely that human health risk at some of these
                         sites could be greater in the future as development expands into
                         areas of mine waste contamination, unless the site is cleaned up.




                                            72
6.   Chapter 2, pages     Comment:
     15-16
                          The discussion neglects to mention several toxic effects of these
                          contaminants at mining sites. It should be noted that children are
                          at greater risk to lead (than adults), and that some of the
                          developmental effects are subtle, yet real (e.g., depressed IQ). It
                          should also be noted that dermal exposures to arsenic may cause
                          hyperkeratosis and hyperpigmentation and that oral and dermal
                          exposures (to arsenic) may cause skin cancer. Zinc’s ability to
                          cause gastrointestinal distress and discomfort should also be noted.
                          It is recommended that EPA’s Integrated Risk Information (IRIS,
                          website: http://www.epa.gov/iriswebp/iris/) and the Agency for
                          Toxic Substances and Disease Registery (ATSDR) Toxicological
                          Profiles (website: http://www.atsdr.cdc.gov/toxpro2.html) be
                          consulted and referenced for a more comprehensive discussion of
                          the toxic effects of these contaminants.
7.   Chapter 2, page 20   Comment:

                          The discussion of operation and maintenance costs of pumping and
                          treatment of groundwater remedies is not correct. Pumping
                          groundwater as part of a remedial action (e.g., 90% Federal, 10%
                          State) is funded for 10 years only for remedies restoring
                          groundwater to a beneficial use. If the remedy is pumping
                          groundwater to contain a plume, the pumping is not viewed as an
                          O&M cost.
8.   Chapter 3, page 24   Comment:

                          Note again that the characterization of risk as low is based upon
                          current risk, and does not address future risk, which may be greater
                          unless cleanup is provided.

                          Suggested edit, to be inserted at the second sentence on page 24:

                          Note that future human health risk could be greater if areas
                          containing mine wastes are developed without site cleanup.




                                            73
9.   Chapter 3, page 28   Comment:

                          Additional text should be added to this discussion to reflect that the
                          low risk at some of the mining sites may be low because removal
                          actions had already been completed (a good thing from the
                          perspective of public health protection). It should also be noted
                          that future risk was not addressed, and that risk in the future may
                          be greater as development leads to human exposures and risk in
                          areas of mining contamination, unless the site is cleaned up.

                          Suggested edit, add as the third sentence on page 28:

                          It should be noted that the survey asked about current health risk.
                          Future health risks at these sites could be greater if development
                          occurs in areas of mine waste contamination without site cleanup.
10   Chapter 3, page 28   Comment:

                          We believe that there is additional relevant information on the
                          human health risk at mining sites which should be reflected as an
                          additional conclusion at the end of Chapter 3. The report should
                          note that ATSDR and EPA have worked together on a number of
                          mining sites where lead was the principal contaminant. On several
                          of these sites, ATSDR collected blood samples from children
                          living near the site. Analyses of these blood samples for lead
                          showed a substantial percentage of the children at these sites had
                          elevated blood lead levels. Following site cleanups, additional
                          blood samples were collected and analyzed for lead showing a
                          measurable drop in the blood lead levels attributable to site cleanup
                          and related activities. Such actions represent quantified
                          improvement in the public health of these communities, which
                          should be reflected in the OIG report. Upon request, OSWER will
                          work with its Regional Offices and ATSDR to provide these
                          reports to OIG.

                          Add as second bullet (of the Summary and Conclusions):

                          “In response to a draft of this report, EPA has reported that blood
                          lead samples collected from children near some mining sites before
                          and after cleanups have shown a dramatic improvement with a
                          reduction in the number of children with elevated levels of lead in
                          the blood.”




                                            74
11.   Chapter 5, page 45   Comment:

                           It should be noted again that the risk being characterized is current
                           risk only. This might best be reflected in this section as a footnote
                           on the figure titled “Maximum Projected Federal Capital Costs for
                           Human Health Risks”.
12    Chapter 5, page 46   Comment:

                           The following statement is incorrect "In total nearly 100 percent of
                           estimated federal costs to cleanup hardrock mining sites in
                           CERCLIS, are projected for sites that predominately are considered
                           to be low risk or have unknown human health risk." At many of
                           these sites, the states or EPA have not conducted detailed risk
                           assessments. However, almost all of the sites identified in this
                           study are in regions, including Florida, where the availablity of
                           water and the quality of the available water are issues of paramount
                           public concern. Contaminated water impacts the health of living
                           resources and also agriculture, municipal and industrial water
                           supplies, and commercial recreation. The socioeconomic effects of
                           contaminated water include the increased costs of water treatment
                           where practicable, the costs of developing additional sources of
                           water where contaminated water cannot be rendered useful through
                           treatment, and ancillary effects such as the inability of urban and
                           rural subsistence fishermen to obtain a safe protein component for
                           their diet. Direct human health risk is a priority for Superfund, but
                           it is not the only objective of the statute. CERCLA section 104
                           (a)(1) authorizes the President to act, to "protect the public health,
                           welfare, and the environment."




                                             75
B.   Costs to Address Hardrock Mining Sites:

 1   Executive          The Report states ... “We identified 156 hardrock mining sites ... to
     Summary, Results   cost between $7 billion and $24 billion total to cleanup..”

                        Comment:

                        The report needs to clarify exactly how the IG came up with a list of
                        156 potential sites requiring Superfund attention. It is necessary to
                        explain to the reader how reliable this estimate is.

                        The IG should use a range of cost estimates based on reliability of
                        data about a site when calculating costs. For example, there are a
                        limited number of sites where EPA or the state has calculated a
                        cleanup cost. These sites having Engineering Evaluations/Cost
                        Assessments (EE/CAs), RODs or other standard Agency response
                        cost calculations should be identified and separated from other sites.


 2   Executive          Comment:
     Summary, Results
                        The report fails to acknowledge that when a site with significant
                        human health or environmental risks is brought to EPA’s attention,
                        the Agency’s first task would be to identify if a viable PRP exists.
                        The report should clearly state that the vast majority of mine site
                        cleanups are now being paid for by PRPs. There is an assumption
                        in the report that the billion dollar costs needed to cleanup the 156
                        sites will be primarily borne by the federal government. That may
                        not be the case. We do, however, acknowledge that some portion of
                        these costs may have to be borne by the federal government at high
                        risk sites where there is no viable PRP or states are not willing to
                        address these sites.




                                           76
3   Executive          The Executive Summary states that: "For cleanups that are financed
    Summary, Results   by Superfund, EPA operates and maintains the cleanup facility for
                       up to 10 years, with the State paying 10 percent of the cost, after
                       which responsibility is turned over to the State."

                       Comment:

                       The above statement is a source of confusion because it is only true
                       for remedies when the Agency pays for groundwater or surface
                       water restoration. For example, if we cap a site, EPA turns the
                       O&M over to the state once the remedial action is complete, not
                       after 10 years. The Report should use the language provided in the
                       NCP Section 300.435 (f)(3) which states:

                       Recommended Language:

                       "For Fund-financed remedial actions involving treatment or other
                       measures to restore ground- or surface-water quality to a level that
                       assures protection of human health and the environment, the
                       operation of such treatment or other measures for a period of up to
                       10 years after the remedy becomes operational and functional will
                       be considered to be part of the remedial action."

                       Additionally, if the site is within a tribal reservation, there is no
                       equivalent to the state cost-share and O&M requirements.




                                           77
4   Executive          Report states that “Region 4's hardrock mining sites account for
    Summary, Results   about half of the .....cleanup costs”

                       Comments:

                       The cleanup cost range between $100 to $500 million in the OIG
                       survey is very broad and capturing the upper bound costs greatly
                       exaggerates the cleanup costs and provides misleading information.
                       For example, Region 4 filled out the survey using the $100 to $500
                       million cleanup cost estimate for the 22 phosphate mining sites in
                       Florida. The Region believes that site cleanup costs will most likely
                       fall at the lower end of the $100 to $500 million range. The
                       difference between the low and high end of the cost for these 22
                       sites is about $8.8 billion ($2.2 billion versus $11 billion). This is a
                       major difference in total costs and we request that the report explain
                       that cost amounts represent the upper boundary of a cost range
                       which may be significantly lower.

                       Region 4 indicated that these data are very speculative because they
                       are based on uncertainties regarding the extent of the problems,
                       contaminant levels, cleanup criteria, and whether the sites will be
                       enforcement vs fund-lead. Region 4 conducted some initial cost
                       calculations for the cleanup of a 500 home subdivision and
                       estimated a cost of $375,000,000. The Region then extrapolated
                       this data over the 40,000 acres of residential development and the
                       even larger nonresidential mining areas. Doing this approach, it is
                       easy to calculate a cost of cleanup in the billions of dollars.
5   Chapter 5          Comment:

                       Chapter 5 clean-up costs are noted as maximum and minimum
                       estimates. As noted earlier, the report should separate out costs
                       based on reliability of cost information.
6   Chapter 5          Comment:
    pages 45-46
                       The report indicates that $13.8 billion (maximum estimate in Figure
                       5.6) will be needed to cleanup human health sites. Until the Agency
                       determines if PRPs are available, it is unclear exactly who will pay.
                       The report questionnaire asked the respondents to identify whether a
                       PRP existed. The Agency believes that many respondents noted
                       that there was no PRP because no PRP search had been conducted
                       at that time. The Agency recommends that the OIG add language
                       that points this out.


                                           78
C.      Comments on HRS:

The discussion related to HRS (including the footnote) as a tool for determining relative risk does
not seem relevant for this report and contains inaccurate statements. Even when a site scores way
above 28.5, it is not given priority over a site that scores at 28.5, since this score is only a
threshold number that indicates the need for further investigation. Further investigation leads to
much more accurate evaluation of risk. Also, it is true that some sites might score under the
revised HRS that did not score under the old HRS, but the revised HRS has been used to score
sites for the past 14 years. Most of the current NPL sites have been scored using the newer HRS.

1.      Page 63, last paragraph, second sentence: Change to read “The Hazard Ranking System
        was not designed as a risk assessment tool, but rather as a screening tool, the purpose of
        which is to identify sites eligible for response action.11

2.      We suggest footnote 11 on page 63 be changed to the following:

The Hazard Ranking System (HRS), as described in 40 CFR Part 300 (12/14/90), Hazard Ranking System,
Final Rule, is “the primary way of determining whether a site is eligible to be included on the National
Priorities List (NPL), the Agency’s list of sites that are priorities for long-term evaluation and remedial
response, and is a crucial part of the Agency’s program to address the identification of actual and potential
releases.” Section 105(a)(8)A of CERCLA requires that EPA establish: “Criteria for determining priorities
among releases or threatened releases [of hazardous substances] throughout the United States for the
purpose of taking remedial action and, to the extent practicable taking into account the potential urgency
of such action, for the purpose of taking removal action. Criteria and priorities * * * shall be based upon
the relative risk or danger to public health or welfare or the environment * * * taking into account to the
extent possible the population at risk, the hazard potential of the hazardous substances at such facilities,
the potential for contamination of drinking water supplies, the potential for direct human contact, [and]
the potential for destruction of sensitive ecosystems * * *.” The HRS was developed to meet the
described criteria in a quick and inexpensive way. It is important to recognize that the HRS is not a risk
assessment tool, but rather a way to screen out sites that are not likely to be of sufficient risk to warrant
NPL listing, and at the same time, provide enough information for the purpose of, according to 40CFR
Part 300, “identifying for the States and the public those facilities and sites which appear to warrant
remedial actions.” * * *....”This provision is intended to ensure that the Hazard Ranking System performs
with a degree of accuracy appropriate to its role in expeditiously identifying candidates for response
actions.

D:      Other Comments/Editorial: (Redline/Strikeout on specific language in Report)


Page i, Executive Summary - paragraph 2, 1st sentence

Suggest revising this sentence to read “For the purposes of this report, ‘hardrock mining’ refers to
proposed, active, inactive and abandoned mines, mills and mineral extraction facilities from the



                                                     79
metal, phosphate, uranium and industrial mineral sectors; it does not include coal mining, crushed
stone quarrying mining, or aggregate mining.”

Page ii, Executive Summary - Recommendations

The first sentence is a bit confusing. Suggest the following revision: ".... to enhance the
effectiveness of Agency decision-making and planning, concerning the ability of the Superfund
program to manage potential financial burdens in implementing cleanups at hardrock mining sites
challenges from hardrock mining financial concerns."

Suggest revising the last sentence to read "....and the prioritizing of resources efforts based on
immediate human health and environmental risks ...."

Page 13

Suggest revising the last sentence to read “Because most of the sites in the inventory are
abandoned, the extent of EPA liability stemming from complications of locating PRPs is
unknown at this time.”

page 25

This paragraph needs to be clarified.

"Compared to NPL sites,(is this all NPL sites or just mining sites?) only 30 percent of sites which
the Superfund program has in CERCLIS, (is this 30 percent of identifiable mining sites?) but
which haven't been yet listed on the NPL, . . . "

Suggest revising the last sentence as shown below.

Twenty-two (or 27%) of these sites with unknown human health risk are phosphate mining and
processing sites in Florida . . . " (See figure 3.4).

page 37

"They are exclusive of costs required for (not to) the long-term operation and maintenance of the
remedial action.




                                                 80
                                                                               Appendix E

                                Distribution List
Assistant Administrator, Office of Solid Waste and Emergency Response (5101T)
Assistant Administrator (Acting), Office of Enforcement and Compliance Assurance (2201A)
Assistant Administrator, Office of Air and Radiation (6101A)
Assistant Administrator, Office of Research and Development (8101R)
Assistant Administrator (Acting), Office of Water (4101M)
Assistant Administrator (Acting), Office of General Counsel (2310A)
Regional Administrators, Regions 1 - 10
Director, Office of Superfund Remediation and Technology Innovation (5201G)
Deputy Director, Office of Solid Waste (5301W)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator, Office of Public Affairs (1101A)
Agency Followup Official (2710A)
Agency Followup Coordinator (2724A)
Audit Liaison, Office of Solid Waste and Emergency Response (5103T)
Audit Liaison, Office of Enforcement and Compliance Assurance (2201A)
Audit Liaison, Office of Air and Radiation (6102A)
Audit Liaison, Office of Research and Development (8102R)
Audit Liaison, Office of Water (4102)
Audit Followup Coordinator, Office of Research and Development (8102)
Inspector General (2410)




                                            81
